<html>
<title> - AMERICAN AGRICULTURE AND OUR NATIONAL SECURITY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                 AMERICAN AGRICULTURE AND OUR NATIONAL SECURITY

=======================================================================

                                HEARING

                               BEFORE THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 4, 2015

                               __________

                           Serial No. 114-33
                           
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov

                                ____________
                                
                                
                           U.S. GOVERNMENT PUBLISHING OFFICE
97-543 PDF                      WASHINGTON : 2016                           

________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bcdbccd3fcdfc9cfc8d4d9d0cc92dfd3d192">[email&#160;protected]</a>  






                        COMMITTEE ON AGRICULTURE

                  K. MICHAEL CONAWAY, Texas, Chairman

RANDY NEUGEBAUER, Texas,             COLLIN C. PETERSON, Minnesota, 
    Vice Chairman                    Ranking Minority Member
BOB GOODLATTE, Virginia              DAVID SCOTT, Georgia
FRANK D. LUCAS, Oklahoma             JIM COSTA, California
STEVE KING, Iowa                     TIMOTHY J. WALZ, Minnesota
MIKE ROGERS, Alabama                 MARCIA L. FUDGE, Ohio
GLENN THOMPSON, Pennsylvania         JAMES P. McGOVERN, Massachusetts
BOB GIBBS, Ohio                      SUZAN K. DelBENE, Washington
AUSTIN SCOTT, Georgia                FILEMON VELA, Texas
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHELLE LUJAN GRISHAM, New Mexico
SCOTT DesJARLAIS, Tennessee          ANN M. KUSTER, New Hampshire
CHRISTOPHER P. GIBSON, New York      RICHARD M. NOLAN, Minnesota
VICKY HARTZLER, Missouri             CHERI BUSTOS, Illinois
DAN BENISHEK, Michigan               SEAN PATRICK MALONEY, New York
JEFF DENHAM, California              ANN KIRKPATRICK, Arizona
DOUG LaMALFA, California             PETE AGUILAR, California
RODNEY DAVIS, Illinois               STACEY E. PLASKETT, Virgin Islands
TED S. YOHO, Florida                 ALMA S. ADAMS, North Carolina
JACKIE WALORSKI, Indiana             GWEN GRAHAM, Florida
RICK W. ALLEN, Georgia               BRAD ASHFORD, Nebraska
MIKE BOST, Illinois
DAVID ROUZER, North Carolina
RALPH LEE ABRAHAM, Louisiana
JOHN R. MOOLENAAR, Michigan
DAN NEWHOUSE, Washington
TRENT KELLY, Mississippi

                                 ______

                    Scott C. Graves, Staff Director

                Robert L. Larew, Minority Staff Director

                                  (ii)
                             
                             C O N T E N T S

                              ----------                              
                                                                   Page
Conaway, Hon. K. Michael, a Representative in Congress from 
  Texas, opening statement.......................................     1
    Prepared statement...........................................     3
Peterson, Hon. Collin C., a Representative in Congress from 
  Minnesota, opening statement...................................     5

                               Witnesses

Negroponte, Hon. John D., former Ambassador; Vice Chairman, 
  McLarty Associates, Washington, D.C............................     5
    Prepared statement...........................................     8
    Submitted question...........................................    49
Beckham, D.V.M., Ph.D., Tammy R., Dean, College of Veterinary 
  Medicine, Kansas State University, Manhattan, KS...............    10
    Prepared statement...........................................    12

                           Submitted Material

Matz, J.D., Marshall L., Principal Attorney, Olsson Frank Weeda 
  Terman Matz PC (OFW Law), submitted statement..................    47
  

 
             AMERICAN AGRICULTURE AND OUR NATIONAL SECURITY

                              ----------                              


                      WEDNESDAY, NOVEMBER 4, 2015

                          House of Representatives,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Committee met, pursuant to call, at 10:00 a.m., in Room 
1300 of the Longworth House Office Building, Hon. K. Michael 
Conaway [Chairman of the Committee] presiding.
    Members present: Representatives Conaway, Goodlatte, King, 
Thompson, Gibbs, Crawford, Benishek, Denham, LaMalfa, Davis, 
Allen, Bost, Rouzer, Abraham, Moolenaar, Newhouse, Kelly, 
Peterson, Costa, Walz, McGovern, DelBene, Lujan Grisham, 
Kuster, Nolan, Maloney, Kirkpatrick, Plaskett, Adams, Graham, 
and Ashford.
    Staff present: Haley Graves, Jackie Barber, John Goldberg, 
Josh Maxwell, Mary Nowak, Mollie Wilken, Scott C. Graves, 
Faisal Siddiqui, John Konya, Mary Knigge, Matthew MacKenzie, 
Nicole Scott, and Carly Reedholm.

OPENING STATEMENT OF HON. K. MICHAEL CONAWAY, A REPRESENTATIVE 
                     IN CONGRESS FROM TEXAS

    The Chairman. This hearing of the Committee of Agriculture 
regarding American agriculture and our national security, will 
come to order.
    Please join me in a brief prayer. Dear Heavenly Father, we 
ask, Lord, for your wisdom and guidance this morning on our 
deliberations. The issues that face our country and our world, 
quite frankly, we will be talking about this morning. Please 
give us ears to hear and lips that speak the truth. Forgive us 
where we fail. And, Lord, we ask these things in Jesus' name. 
Amen.
    The hearing will come to order. I thank our witnesses for 
being here, as well as the others.
    Many of you may be wondering why the Committee on 
Agriculture would be holding a hearing on national security. A 
former Chairman of this Committee, the Honorable Kika de la 
Garza, would often tell a story when asked how long can a 
nuclear submarine stay underwater? The simple answer, until it 
runs out of food.
    With fewer and fewer Americans connected to production 
agriculture, many in Congress fail to recognize the importance 
of sound agricultural policy to our national security. Sitting 
on the Armed Services Committee and now chairing the 
Agriculture Committee, I find myself in a position to highlight 
this important relationship.
    Agriculture and national security are intertwined in many 
different ways; whether it is ensuring that food is available 
to meet nutritional needs for both those within our own borders 
as well as those around the world, or ensuring that food coming 
into our borders is disease and pest-free, or guaranteeing that 
farmers and ranchers have the needed policy tools in place to 
continue producing food and fiber.
    It is my hope that in this hearing we can begin to examine 
the threats and vulnerabilities to agricultural security, as 
well as discuss the economic significance associated with those 
threats.
    The food and agriculture industry in the United States is 
not only crucial to the public health and welfare of this 
nation, but is an important force in the economic, social, and 
political fabric here and abroad. The U.S. food and agriculture 
industry is almost entirely under private ownership, and is 
composed of an estimated 2.1 million farms, which are the 
foundations of our nearly $1 trillion food and fiber business 
with over $150 billion in exports for Fiscal Year 2014. In 
2013, 16.9 million full and part-time jobs were related to 
agriculture, which is approximately 9.2 percent of the U.S. 
employment force.
    From a security standpoint, there are an array of sectors 
ranging from farms with relatively open croplands to highly 
secure food and dairy processing facilities. At the retail end, 
small neighborhood cafes operate in markets with large 
supermarket chains and nationally franchised restaurants. 
Continuous changes in the way that food is produced, 
distributed, and consumed present new challenges for ensuring 
its safety and security.
    While increasing global trade presents opportunities for 
raising food safety and quality standards to levels 
commensurate with those of the United States, it also means 
increasing the amount of food coming into this country. In 
fact, the total volume of U.S. food imports has increased 60 
percent over the last decade. This heightens the importance of 
ensuring that products entering our borders meet our quality 
and safety standards.
    Near-term threats to food security include weather, 
conflict, diseases, resource constraints, and environmental 
degradation. For example, large exportable supplies of key 
components of food production, such as phosphates, potash, and 
fuel oil, come from states where conflict or government actions 
could cause supply chain disruptions that lead to price spikes. 
In addition, monitoring and controlling outbreaks of 
agricultural diseases will become increasingly difficult as the 
world becomes more integrated, disease vectors shift, and 
domestic animal populations grow and become more concentrated.
    Historically, our food safety, plant protection and animal 
health regulatory systems have assumed the accidental 
contamination of food or inadvertent introduction of animal 
disease or plant pest. The prospect of an intentional, or 
terrorist, attack on our food and agriculture industry raises 
grave concerns that present challenges for producers and 
policymakers alike. We intend to dive deeper into the Federal 
role and responsibility for preventing, detecting, and 
responding to emergencies in future hearings.
    I want to thank our distinguished panel for joining us 
today to discuss the role U.S. agriculture plays in maintaining 
a strong U.S. economy and stability around the world.
    Today we will hear from Ambassador Negroponte who served as 
the first ever Director of National Intelligence. Prior to this 
appointment, he served as the U.S. Deputy Secretary of State, 
and had several appointments as Ambassador to Honduras, Mexico, 
the Philippines, the United Nations, and Iraq. He has firsthand 
experience protecting the national security of this country, 
and I want to thank him for his service and leadership.
    I also look forward to hearing from Dr. Tammy Beckham, Dean 
of the College of Veterinary Medicine at Kansas State 
University. Dean Beckham also has served as Director of the 
Institute for Infectious Animal Diseases; Director of the Texas 
A&M Veterinary Medical Diagnostic Laboratory; Director of the 
Foreign Animal Disease Diagnostic Laboratory, a part of the 
USDA's Plum Island Animal Disease Center; and she served as a 
Captain in the United States Army where she served at the 
Army's Medical Research Institute for Infectious Diseases. Dr. 
Beckham, we are glad to have you, ma'am.
    While much of today's hearing will focus on threats and 
vulnerabilities to domestic and international food security, we 
must remember the importance of our producers here at home. 
America has the safest, most affordable, most abundant food 
supply in the history of the world, and that is not by 
accident, it is by design. Sound agricultural policy has been 
an integral piece of our ability to feed and clothe not only 
our nation, but the world. Agriculture is the backbone of the 
economy, and throughout history America has been able to not 
only survive, but thrive because our agricultural safety net 
helps farmers weather the bad times. We must never forget there 
is no food without the farmer.
    President George W. Bush eloquently summed it up when he 
said we are a blessed nation because we can grow our own food. 
A nation that can feed itself is a much more secure nation.
    [The prepared statement of Mr. Conaway follows:]

  Prepared Statement of Hon. K. Michael Conaway, a Representative in 
                          Congress from Texas
    Good morning, and welcome to today's hearing. Many of you may be 
wondering why the Committee on Agriculture would be holding a hearing 
on national security. A former Chairman of this Committee, the 
Honorable Kika de la Garza, would often tell a story when he was asked: 
``How long can a nuclear submarine stay under water?'' The simple 
answer, until it runs out of food.
    With fewer and fewer Americans connected to production agriculture, 
many in Congress fail to recognize the importance of sound agricultural 
policy to our national security. Sitting on the Armed Services 
Committee and now chairing the Agriculture Committee, I find myself in 
a position to highlight this important relationship.
    Agriculture and national security are intertwined in many different 
ways--whether it is ensuring that food is available to meet nutritional 
needs for both those within our own borders as well as those around the 
world, or ensuring that food coming into our borders is disease and 
pest free, or guaranteeing that farmers and ranchers have the needed 
policy tools in place to continue producing food and fiber.
    It is my hope in this hearing we can begin to examine the threats 
and vulnerabilities to agricultural security, as well as discuss the 
economic significance associated with those threats.
    The food and agriculture industry in the United States is not only 
crucial to the public health and welfare of this nation, but is an 
important force in the economic, social and political fabric here and 
abroad. The U.S. food and agriculture industry is almost entirely under 
private ownership and is composed of an estimated 2.1 million farms, 
which are the foundations of our nearly $1 trillion food and fiber 
business with over $150 billion in exports for FY 2014. In 2013, 16.9 
million full and part time jobs were related to agriculture, which is 
approximately 9.2 percent of total U.S. employment.
    From a security standpoint, there are an array of sectors ranging 
from farms with relatively open croplands to highly secure food and 
dairy processing facilities. At the retail end, small neighborhood 
cafes operate in markets with large supermarket chains and nationally 
franchised restaurants. Continuous changes in the way that food is 
produced, distributed, and consumed present new challenges for ensuring 
its safety and security.
    While increasing global trade presents opportunities for raising 
food safety and quality standards to levels commensurate with those of 
the United States, it also means increasing the amount of food coming 
into this country. In fact, the total volume of U.S. food imports has 
increased 60% over the last decade. This heightens the importance of 
ensuring that products entering our borders meet our quality and safety 
standards.
    Near-term threats to food security include weather, conflict, 
diseases, resource constraints, and environmental degradation. For 
example, large exportable supplies of key components of food 
production--such as phosphates, potash, and fuel oil--come from states 
where conflict or government actions could cause supply chain 
disruptions that lead to price spikes. In addition, monitoring and 
controlling outbreaks of agricultural diseases will become increasingly 
difficult as the world becomes more integrated, disease vectors shift, 
and domestic animal populations grow and become more concentrated.
    Historically, our food safety, plant protection and animal health 
regulatory systems have assumed the accidental contamination of food or 
inadvertent introduction of animal disease or plant pest. The prospect 
of an intentional, or terrorist, attack on our food and agriculture 
industry raises grave concerns that present challenges for producers 
and policymakers alike. We intend to dive deeper into the Federal role 
and responsibility for preventing, detecting and responding to 
emergencies in future hearings.
    I want to thank our distinguished panel for joining us today to 
discuss the role U.S. agriculture plays in maintaining a strong U.S. 
economy and stability around the world.
    Today we will hear from Ambassador Negroponte who served as the 
first ever Director of National Intelligence. Prior to this 
appointment, he served as the U.S. Deputy Secretary of State and had 
several appointments as U.S. Ambassador to Honduras, Mexico, the 
Philippines, the United Nations, and Iraq. He has first-hand experience 
protecting the national security of this country, and I want to thank 
him for his service and leadership.
    I also look forward to hearing from Dr. Tammy Beckham, Dean of the 
College of Veterinary Medicine at Kansas State University. Dean Beckham 
has also has served as Director of the Institute for Infectious Animal 
Diseases; Director of the Texas A&M Veterinary Medical Diagnostic 
Laboratory; Director of the Foreign Animal Disease Diagnostic 
Laboratory, a part of the U.S. Department of Agriculture's Plum Island 
Animal Disease Center; and she served as a Captain in the U.S. Army 
where she served at the Army's Medical Research Institute for 
Infectious Diseases.
    While much of today's hearing will focus on threats and 
vulnerabilities to domestic and international food security, we must 
remember the importance of our producers here at home. America has the 
safest, most affordable, most abundant food supply in the history of 
the world, and that is not by accident--it is by design. Sound 
agricultural policy has been an integral piece of our ability to feed 
and clothe not only our nation, but the world. Agriculture is the 
backbone of the economy, and throughout history America has been able 
to not only survive, but thrive because our agricultural safety net 
helps farmers weather the bad times. We must never forget that there is 
no food without the farmer.
    President George W. Bush eloquently summed it up when he said 
``We're a blessed nation because we can grow our own food. A nation 
that can feed its people is a nation more secure.''

    The Chairman. And with that, I will turn to the Ranking 
Member for any comments that he has.

OPENING STATEMENT OF HON. COLLIN C. PETERSON, A REPRESENTATIVE 
                   IN CONGRESS FROM MINNESOTA

    Mr. Peterson. Thank you, Mr. Chairman. And I would like to 
welcome today's witnesses to the Committee.
    A strong ag sector and stable food supply is critical to 
national security, and agriculture has an important role to 
play when it comes to our country's national security 
interests. It is something I don't think a lot of people really 
understand, and I appreciate the Chairman giving a shout-out to 
our former Chairman, Mr. de la Garza, who was a great Chairman 
of this Committee for many years.
    The Chairman. And a Texan.
    Mr. Peterson. A Texan, yes. And I am probably the only 
person left on this Committee who could recite the submarine 
story by heart because I heard it so many times. But he made 
his point, and it is a very valid point.
    Today's hearing will allow us to examine the threats and 
vulnerabilities to agriculture and the economic impacts that 
these would have. And as people know, I have a particular 
interest in high-path avian influenza, and I look forward to 
discussing this and other threats to agriculture.
    And with that, I yield back.
    The Chairman. Well, we now turn to our panelists. We 
normally have a 5 minute rule, but given the unique nature of 
what today's hearing is about, and the opportunity to set a 
foundation for a grand strategy associated with our country as 
we weave agriculture and its security into the process, I will 
ask our witnesses to be respectful of time but don't worry 
about the 5 minute clock, because we really want to hear what 
each of you have to say.
    So with that, Ambassador, the floor is yours. That same 
flexibility with the clock would not apply to Members.

          STATEMENT OF HON. JOHN D. NEGROPONTE, FORMER
AMBASSADOR; VICE CHAIRMAN, McLARTY ASSOCIATES, WASHINGTON, D.C.

    Mr. Negroponte. Thank you very much, Mr. Chairman, Ranking 
Member Peterson, and Members of the Committee. I appreciate the 
opportunity to discuss the relationship between national 
security and agriculture. And before I give a brief summary of 
my testimony, I would like to mention that I knew Kika de la 
Garza. I knew him very well because he was also head of the 
U.S.-Mexico Congressional Caucus that used to meet 
periodically, the two legislatures, and he led the delegations 
down to Mexico City all the time. And, of course, being from 
the border area there in Texas, and having a Latino background, 
he knew Mexico extremely well.
    I also want to mention that during the course of my foreign 
service career and diplomatic career, I had nine overseas 
postings altogether during the 44 years that I worked in 
government, but I can hardly think of a place where I served 
where agriculture didn't figure prominently in one way or 
another in the situations we were dealing with. Whether it was 
a crisis of some kind, or whether it had to do with our 
analysis of local, political, and economic conditions; you 
can't understand another country in most instances unless you 
understand something about their rural areas and agricultural 
conditions.
    And I was thinking, my first assignment in 1961 was to Hong 
Kong. And you would say, ``Well, what does that have to do with 
agriculture?'' Well, back then, we were trying to figure out 
whether there was a famine in China. And we didn't have the 
means of intelligence that we have today, we would just send a 
satellite and go survey a little bit of the terrain and so 
forth, and we would probably be able to figure things out 
pretty fast, but we couldn't back then. We relied on refugee 
reports, we relied on people pouring over Chinese language 
newspapers that got smuggled out of China. Remember, there was 
the Bamboo Curtain at that time. We had a whole basement of a 
warehouse in Hong Kong where we got all these newspapers, and 
then we had people translating these articles trying to look 
for traces of information about what the agricultural 
conditions were in China at that time. And we used to have some 
fierce debates amongst us as to just how bad conditions were 
because our intelligence wasn't that good.
    Vietnam, of course, I served there, and what more important 
a country in the area for rice production, the Mekong Delta, 
fabulously fertile country. I was there during the war from 
1964 to 1968 and, of course, agricultural production during 
those wartime conditions dropped precipitately, and a country 
that had been exporting 1.5 or so million tons of rice in 1939, 
before World War II, by the time of the Vietnam war, was 
importing food. And that was one of our major programs, a 
commodity import program, to satisfy the food needs of the 
Vietnamese people during the course of the war.
    I can go on. Ecuador, biggest banana producer in the world. 
Mexico, of course, myriad agricultural issues, had to do with 
NAFTA--the whole NAFTA question intersected. And how are 
subsistence farmers in Mexico going to fare in the wake of 
becoming more globalized as the Mexican economy has. And Iraq, 
of course, my last post abroad, we are talking about 
Mesopotamia, the land of two rivers, where, an ancient 
civilization, they were practically the inventors of 
agriculture as we know it. And by the time I got there, believe 
me, there was nothing in the way of agricultural production. 
And it was really a sad story, and I don't think it has gotten 
much better since. But maybe some day they will restore their 
irrigation system that they had, which wasn't bad, and grow the 
date palms back that Saddam Hussein had cut down, down in the 
marshland areas, and so on and so forth. So you cannot escape 
the importance of agriculture.
    The other thing I would like to say as a general 
observation concerning America and its standing in the world, 
agriculture is a public good for us, I mean, and the way we 
have conducted our agriculture over the past century and a 
half. And it is a global public good as well. How many times 
have countries faced severe food shortages and crises where 
they relied on us to help breach that gap, whether it was 
Russia during certain very difficult times during the period of 
detente, and elsewhere around the world? We owe that, 
obviously, to our farmers, but we also owe it to farsighted 
policymakers, starting with Abraham Lincoln back in 1861 with 
the Homestead Act, and all that that has implied ever since. 
And thank goodness, we have kept up and nurtured the policies 
that were developed then.
    I see I am already practically out of time. Let me just say 
with regard to my testimony, initially, I discussed some global 
trends, the globalized supply chain, which is becoming more 
important every day. I discussed how the issue of resource 
security, especially water, may become to us in the decades 
ahead what oil has represented in the past. And we don't have 
to look far beyond California to see that. But in the Middle 
East it is a serious problem. They say that Syria's drought 
over the past several years has been a really exacerbating 
factor to the population there, and of course, helps create 
fertile ground for recruitment for terrorist groups. If people 
are unemployed, subsistence farmers are out of a job, they have 
no water to grow crops, they are very vulnerable to these kind 
of predatory behaviors by people like ISIS.
    On a positive side, the rising global middle-class, and 
that is going to--resulting in changes in consumption patterns, 
especially in the rich and middle-income countries. And that 
has its positive implications for United States agriculture in 
terms of demand for more value-added products. We saw that in 
Mexico in the wake of the NAFTA, and our exports of value-added 
and finished agricultural products is very good.
    There is the trend of skepticism of science, especially 
biotechnology, that has been an issue, especially with 
genetically-modified crops. I think most of us here in America 
see that as a problem and an issue with the countries that have 
been resisting that, and it is going to be something we are 
going to have to deal with as we go on in the future.
    There is the long-term trend of rising energy prices. It 
doesn't seem that way right at this moment with the low price 
of oil and the low price of natural gas, but the longer-term 
trend is going to continue to be high, and how agriculture 
copes with the rising input costs.
    And then last, I would say there is the exclusion of too 
many people from the global economy; some 1.4 billion 
subsistence farmers around the world who cannot make ends meet, 
and who are becoming even increasingly marginalized by our 
increasingly globalized economy. I can think, again, back to 
Mexico, of those maize farmers, the corn farmers in Mexico who 
grew corn for subsistence. And obviously, once we got the NAFTA 
and we succeeded in getting the agricultural sector trade 
opened up between the two countries, with just a couple of 
exceptions, this was going to be a threat to the subsistence 
farmers in that country, and all the social ramifications of 
that issue; people coming from the countryside and into the 
cities. And as you know, in Mexico they don't necessarily stop 
when they get to Mexico City or Monterrey or Guadalajara, they 
just keep on coming up to the United States. So there are a lot 
of implications to the fact of subsistence farmers not being 
able to squeeze out a living.
    Let me stop there, Mr. Chairman. I am sorry I ran over, but 
there is so much to talk about.
    [The prepared statement of Mr. Negroponte follows:]

Prepared Statement of Hon. John D. Negroponte, Former Ambassador; Vice 
             Chairman, McLarty Associates, Washington, D.C.
    Thank you Chairman Conaway, Ranking Member Peterson, and Members of 
the Committee. I appreciate this opportunity to discuss the 
relationship between national security and agriculture.
Agricultural Megatrends
    Before I focus on the agriculture and national security nexus, I 
wanted to look at some of the major trends affecting global agriculture 
to provide some background. With a pressing need to feed the future 
world of nine billion people and manage emerging national security 
challenges, we need to look at the big picture as we map our way 
forward.
    One trend is toward an increasingly globalized supply chain with 
our food supplies increasingly dependent on trade. While access to the 
world market has generally reduced food prices and improved access to 
food during local production shortfalls, it also highlights the need to 
secure market access for our agricultural exports while ensuring the 
safety and reliability of our imports. Looking further out, it may also 
necessitate consideration of how to secure food supplies for 
potentially vulnerable U.S. allies such as Japan.
    A second issue is the evolving relationship between food and 
resource scarcity. Over time, rising competition for limited resources 
such as water and arable land could affect political stability and 
shift military priorities. For example, this could fuel further 
instability in the Middle East, where water scarcity in particular has 
the potential to aggravate interstate conflict. Water scarcity plays a 
significant role in both Syria and Iraq, where rivers, canals and dams 
are military targets. Over time, these and other resource constraints 
along with pressures from climate change could slow down increases in 
productivity.
    The next trend is the rising global middle class, which is expected 
to double in size in the next decade. According to the U.N. Food and 
Agriculture Organization, the world must increase food production by 50 
to 60 percent to satisfy expected global population growth and changing 
consumption patterns by 2050. This could transform markets for many 
food products. In East Asia and Sub-Saharan Africa, per capita meat 
consumption by weight is projected to increase by 55 percent and 42 
percent by 2030. These changes will put pressure on the food production 
system, but will also create immense opportunities for U.S. and global 
agricultural producers.
    At the same time, changes in our food system have also driven the 
fourth trend, changes in consumption in rich and middle income 
countries. Consumers are increasingly looking for products that are not 
only healthier but also have other characteristics. This not only 
includes products that are lower in sugar, fat and salt but those that 
address environmental, animal welfare, labor and other concerns. These 
increasing demands on the food system could reduce productivity, but 
could also allow entrepreneurial farmers to get better prices for high-
value and differentiated products.
    Rising consumer demand for value-added products has partially been 
driven by rising anxiety about and skepticism of science. While Western 
Europe has traditionally been least trustful of the food and 
agricultural industry, this trend of rejecting modern agricultural 
production technologies has spread elsewhere, including within the 
United States. This has been most evident in the deepening suspicion 
about agricultural biotechnology and support for mandatory labeling. If 
science skepticism accelerates, this could undermine our ability to 
increase production enough to feed the world.
    The sixth trend is driven by energy prices. Since energy prices are 
one of the largest expenses in agricultural production, food prices 
rise with energy costs. At the same time, energy demands also divert a 
substantial amount of agricultural production. In the United States, 
around 40 percent of corn production is used for ethanol. While energy 
markets are famously volatile, rising long-term energy prices could 
drive up production costs and divert more crops to fuel use.
    A seventh trend is the continuing exclusion of too many farmers 
from the global economy. According to the United Nations, 1.4 billion 
people cannot fulfil their most basic needs--and many are subsistence 
farmers. This continuing poverty makes millions vulnerable to weather, 
disease, price changes or other issues--and can drive many other 
problems, including refugee flows and political instability. Including 
poor farmers in development can increase resilience and prevent 
problems from worsening.
    The last trend is the changing world of agricultural trade policy. 
Although the World Trade Organization (WTO) is still in place, the 
organization may be overtaken in the future by a growing number of 
alternative bilateral or regional trade agreements--which numbered more 
than 600 in 2010. The number is higher now because of new agreements 
such as the recently completed free trade agreement between the 
European Union and Canada. These rules could complicate our ability to 
access markets globally--but also offer an immense opportunity if we 
open trade too.
    At the center of all of these worldwide and regional trends is U.S. 
agricultural production. The United States plays a critical role in 
global agriculture since we are world's largest producer of beef, 
soybeans, corn and poultry and a top exporter of products as diverse as 
almonds, apples, cotton, raisins, sorghum, pork and wheat. Even in our 
highly globalized economy, America is still often the world's swing 
supplier of food.
The Agriculture-National Security Nexus
    All of these trends offer a mix of threats and opportunities for 
the United States--but with the right approaches we can minimize the 
former and maximize the latter. These issues can be clustered into the 
global security, homeland security and economic realms.
    On the global security front, energy security, access to natural 
resources, and continuing ability to trade food globally will be 
central to maintaining our security--and that of America's allies. 
Central to this will be the ability to move physical product through 
open sea lanes, the limitation of trade restricting measures, and 
ensuring access to reasonably priced energy and other resources.
    Homeland security is connected to agriculture because of the 
importance of America's global supply chains and food safety issues. 
Although these issues have not been front and center because of the 
strength of the U.S. regulatory system and our status as a major net 
exporter, the risks do exist.
    The economic dimension is tied to both farm income and to the 
effects on consumer prices. Domestically, the U.S. Department of 
Agriculture estimates that livestock and poultry production alone 
generates more than $100 billion a year in revenue. The U.S. food and 
agriculture sector has also benefited tremendously from trade is 
exports totaled $152.5 billion in Fiscal Year 2014. At the same time, 
Americans spend a little more than six percent of disposable income on 
food, one of the lowest levels in the world. The food and agriculture 
sector creates immense benefits for both producers and consumers--both 
in the United States and worldwide.
Building our Future Security
    All of these topics raise the question of what is to be done. While 
there is not sufficient time to look at the issues in detail, I would 
like to offer a few thoughts--some of which were cited in documents 
such as the recently released Intelligence Community Assessment (ICA) 
on Global Food Security, along with two Development of Homeland 
Security Presidential Directives: HSPD-7, ``Critical Infrastructure 
Identification, Prioritization and Protection'' and HSPD-9, ``Defense 
of United States Agriculture and Food.''
    Infrastructure: Agriculture is extremely dependent on roads, rail, 
electricity, water and other physical infrastructure. As mentioned in 
HSPD-7, it is important for Federal departments and agencies to further 
advance efforts to protect critical infrastructure and key resources by 
preventing, deterring, and mitigating deliberate efforts to destroy, 
incapacitate or exploit them by working across agencies and with state 
and local governments and the private sector. Reducing the chances of 
attack will likely require increased investment in vulnerable or aged 
infrastructure and a continuing evaluation of new and emerging threats.
    Biodefense: One specific kind of threat is the theme of HSPD-9, 
which focuses on the risks of biological attack on U.S. agriculture. 
The consequences of a successful attack range from economic damage to 
threats to food safety and public health. Although there have been no 
large-scale attacks, it is important to strengthen surveillance, 
monitoring and tracking and to enhance nationwide laboratory networks 
to ensure food, veterinary, plant health and clean water. As Federal 
retirements continue apace, we need to build up talent for the future 
in these areas.
    Resource Strategy: Since agriculture is so tied to energy, water 
and other resources, we may consider these items themselves to be of 
strategic importance. In the decades to come, water could become to 
global strategy what petroleum is today, since declining food security 
could contribute to large-scale political instability and conflict. 
These problems could be aggravated by climate change--which may disrupt 
resource availability. To ensure that the United States, its allies and 
other strategically important countries have access to food, we may 
need to reimagine a grand strategy around these resource issues. The 
ICA mentions Africa, the Middle East and South Asia as particularly 
vulnerable to resource constraints.
    Agricultural Research: In order to feed a growing global middle 
class and a population expected to reach nine billion by 2050, we need 
to increase food production. Given the constraints on land, water and 
other resources, the only way to do this is to boost productivity. 
Unfortunately, funding for vital research at the U.S. Department of 
Agriculture and the Consultative Group on International Agricultural 
Research (CGIAR) has stagnated, while the need to produce food becomes 
more pressing. This needs to change.
    Trade Policy: One vital consideration is market access--both for 
U.S. exporters and those in other countries. As noted earlier, exports 
boost U.S. farm income and create jobs--and trade can fill in gaps in 
local food supplies and allow access to lower cost products. Beyond 
this, exports from poor countries also can support their farm incomes 
and boost regional and global food availability. Advancing these goals 
will include both support for free trade agreements such as the Trans-
Pacific Partnership and measures that open the U.S. market, such as the 
African Growth and Opportunity Act (AGOA) and the General System of 
Preferences. Stronger trade agreements could also work against a repeat 
of 2008, where more than 30 major food exporters restricted trade in 
order to stem rising domestic food inflation--at the cost of their 
trading partners.
    Support International Agricultural Development: A final issue is 
the pressing need to support farming systems in the developing world. 
Boosting agricultural production not only increases world food 
supplies, but it can reduce the vulnerability of political systems to 
weather, conflict and other shocks. Boosting rural incomes can reduce 
hunger, prevent the emergence of disease and reduce migration to the 
cities or as refugees overseas. The key to successful development is to 
develop market-oriented systems that improve the operation of 
agriculture as a business by working with farmers, host governments, 
investors, civil society and private industry.
    There is more that needs to be done beyond the issues already 
mentioned. We need to reduce crop and food waste that costs 
approximately \1/3\ of all global food production. To boost production, 
we should focus on trade capacity-building to allow farmers in 
developing countries to compete in the global market. In many 
countries, there needs to be an assessment of counterproductive 
government policies that tax producers and undermine food availability. 
Finally, we need to find a way to encourage agriculture and food policy 
to align with science on such issues as biotechnology.
    Although there are many challenges on the way to feeding the future 
world of nine billion, we can enhance both national and global security 
if we make the right choices now.
    Chairman Conaway, Ranking Member Peterson, and Members of the 
Committee, thank you for the opportunity to testify before you this 
morning. I look forward to answering your questions.

    The Chairman. Well, thanks, Ambassador, and we will get to 
our questions here shortly.
    Dr. Beckham, 5 minutes. And again, thank you for your 
service in the United States Army. I appreciate that.

      STATEMENT OF TAMMY R. BECKHAM, D.V.M., Ph.D., DEAN,
          COLLEGE OF VETERINARY MEDICINE, KANSAS STATE
                   UNIVERSITY, MANHATTAN, KS

    Dr. Beckham. Thank you. Well, good morning, Chairman 
Conaway, Ranking Member Peterson, and Members of the House 
Committee on Agriculture.
    My name is Tammy Beckham, and I am the Dean of the College 
of Veterinary Medicine at Kansas State University. I want to 
thank you for the opportunity to speak to you today regarding 
the importance of American agriculture and its relationship to 
U.S. national security.
    So as we have heard, the U.S. agricultural sector is very 
diverse, it is complex, and it is a highly integrated 
enterprise whose health and productivity is vital to the 
national and global economy, the safety and security of our 
food systems, and ultimately the health and safety of the 
public health sector.
    U.S. agricultural enterprise is a $1 trillion business, the 
largest exporter of food, and employs approximately 9.2 percent 
of American workers. And as I testify before you today, U.S. 
citizens reap the benefits of a robust agricultural industry 
that provides them with access to safe, abundant, and 
affordable food. U.S. consumers spend on average only 6.4 
percent of their annual expenditures on food, and if you 
compare and contrast this to the 11 to 47 percent globally, the 
robustness and productivity of our agricultural enterprise 
becomes readily apparent.
    This is indeed a privilege that, as you well know, does not 
exist globally. There are currently 870 million people around 
the world that do not have access to safe and nutritious food 
in a sufficient supply, and by the year 2050, the global 
population is expected to exceed nine billion people. The very 
elements that make the U.S. agricultural system robust and 
productive are also the same ones that make it vulnerable to a 
natural or intentional introduction of a biological agent.
    The U.S. agriculture and public health systems, while free 
from devastating diseases such as Foot and Mouth Disease, 
African Swine Fever, and Rift Valley Fever, as well as other 
highly pathogenic livestock diseases, emerging, and zoonotic 
diseases, are increasingly becoming a risk for an introduction 
of these pathogens. It has been estimated that over 75 percent 
of all emerging pathogens are zoonotic, and that zoonotic 
pathogens are twice as likely to be associated with an emerging 
disease than non-zoonotic pathogens. The impact from these 
diseases can lead to devastating economic and public health 
implications. A study that was recently completed by Kansas 
State University researchers predicted that costs associated 
with Foot and Mouth Disease outbreak in the Midwest U.S. and in 
the cattle industry could result in a total of $188 billion in 
losses to the livestock industries. In addition, we recently 
learned firsthand from Porcine Epidemic Diarrhea Virus, or 
PEDv, high-path AI, just how significant these disruptions to 
our economy can be.
    All these things said, it probably wasn't until the 2014 
Ebola virus disease outbreak in the U.S. that our nation's gap 
in preparedness for an emerging and zoonotic disease were fully 
realized. We lacked licensed medical countermeasures, the 
scientific knowledge about Ebola virus disease in animals and 
livestock, and a trained workforce that was able to handle 
these types of diseases and knew what to do. And simply said, 
during this outbreak, the meaning of the term One Health took 
on new significance.
    In order to mitigate the threats and vulnerabilities, and 
protect U.S. agricultural enterprise and our international 
markets, we must act immediately to address these gaps in 
biodefense. Despite a large amount of progress since 2001, the 
nation is still woefully under-prepared, and a coordinated and 
comprehensive biodefense program is lacking. Success in 
addressing the gaps will be heavily dependent on an organized, 
strategic, and well-funded approach, and this approach should 
institutionalize the One Health concept. It should be highly 
collaborative in nature, it should leverage all available 
resources, and encompass an international and global health 
component. We cannot ensure political stability abroad without 
addressing global disease issues and food insecurity at the 
international level. This will require strong U.S. leadership 
and engagement through initiatives such as a global health 
security agenda.
    Coordination of a true One Health approach to biodefense 
has not materialized. Nowhere is this more highly visible than 
in the stark contrast between human and animal biodefense 
funding. During Fiscal Year 2014, 61 percent of Federal funding 
for biodefense was allocated to the Department of Health and 
Human Services, but by comparison, one percent of the Federal 
Government funding was allocated to the USDA for agricultural 
biodefense. If the nation is to establish a robust biodefense 
strategy that includes the commitment to institutionalize the 
One Health concept, funding levels must be increased to the 
agricultural sector, and they must be strategically utilized.
    The U.S. agricultural sector is critically important and 
intimately linked to national security in the U.S. Simply 
stated, U.S. ag security is national security. At this moment, 
it is critically important that the U.S. Government and its 
private partners come together and work to add both a sense of 
urgency and direction to the nation's biodefense preparedness 
efforts. Appointing a central office and council that could be 
responsible for developing and implementing a more coordinated, 
cohesive, and collaborative national biodefense strategy would 
be a large step in this direction. Furthermore, a leader or 
council that could assemble a robust team of Federal and 
industry partners could help lower barriers that prevent our 
ability to truly implement the One Health initiative. Barriers 
to the One Health initiative could be overcome with time, 
collaboration, interdisciplinary programs and budgets to 
support and incentivize working together to prepare our nation 
for the next emerging disease event. Indeed, the One Health 
concept must be understood, adopted, and become part of the 
fabric of the way we approach biodefense.
    And finally, Chairman Conaway, Ranking Member Peterson, and 
Members of the House Committee on Agriculture, I want to thank 
you for the opportunity to speak to you today regarding the 
importance of agriculture to national security, and I look 
forward to your questions. Thank you.
    [The prepared statement of Dr. Beckham follows:]

Prepared Statement of Tammy R. Beckham, D.V.M., Ph.D., Dean, College of 
      Veterinary Medicine, Kansas State University, Manhattan, KS
    Good afternoon Chairman Conaway, Vice Chairman Neugebauer, Ranking 
Member Peterson, and Members of the House Committee on Agriculture,
    My name is Tammy Beckham and I am the Dean of the College of 
Veterinary Medicine at Kansas State University.
    Thank you for the opportunity to speak to you today regarding the 
importance of American Agriculture and its relationship to U.S. 
national security.
Agricultural Security and its Relationship to National Security
    The food and agricultural system in the u.s. is one of sixteen 
critical infrastructures whose assets, systems, and networks are 
considered to be so vital to the U.S. that their incapacitation or 
destruction would have a debilitating effect on security, the national 
and global economy, public health and safety, or any combination 
thereof. The agricultural sector has been deemed a critical 
infrastructure for the U.S. in that the health of this enterprise is 
critical to ensuring the nation's economic viability, the safety and 
security of our food systems, and ultimately, the health and safety of 
the public health sector.
    The U.S. agricultural sector is a diverse, complex and highly 
integrated enterprise whose health and productivity is vital to the 
national economy. Agriculture in the U.S. is a $1 trillion business and 
this sector alone employs approximately 9.2% of American workers. In 
2013, agriculture and agricultural-related industries contributed $789B 
to the U.S. gross domestic product (GDP) \1\ and in 2012, domestic 
animal agriculture (e.g., livestock and poultry production) produced 
approximately 1.8M jobs, $346B in total economic output, and $60B in 
household income.\2\ Furthermore, in the U.S., consumers spend on 
average, approximately 6.4% of their annual expenditures on food. This 
percentage is extremely low when compared to other countries whose 
expenditures range from 11% (Switzerland) to 47% (Pakistan).\3\ U.S. 
farmers and ranchers work hard to keep food prices low and are only 
able to accomplish this through increased efficiencies in production. 
Increased efficiencies have been gained through technological 
advancements in industrial food production. Threats that jeopardize our 
production and the security and affordability of the U.S. food system 
have the potential to disrupt our social structure and cause political 
instability.
---------------------------------------------------------------------------
    \1\ USDA Economic Research Service. http://ers.usda.gov/data-
products/ag-and-food-statistics-charting-the-essentials/ag-and-food-
sectors-and-the-economy.aspx.
    \2\ Economic benefits of the Livestock Industry. iGrow, South 
Dakota State University Extension. July 2014.
    \3\ USDA Economic Research Service. http://www.ers.usda.gov/data-
products/food-expenditures.aspx#.UuE9EHn0Ay5.
---------------------------------------------------------------------------
    The bulk of the agricultural enterprise is almost solely owned and 
operated by the private sector, and the U.S. is currently the world's 
leading exporter of food. When evaluating the impact on the economy, 
the food supply and the nation's jobs, it is clearly evident why this 
industry is deemed a U.S. critical infrastructure. Any disruption to 
the daily operations and/or productivity of this enterprise would have 
significant impacts on Americans' livelihoods, our food supply, the 
economy and our public health. Simply said, U.S. agricultural security 
is national security.
    In addition to understanding the importance of the agricultural 
industry in the U.S. and its role in supporting national security, it 
is also important and critical that we understand the role of global 
food security in securing the homeland. Currently, 870 million people 
around the world do not have access to safe and nutritious food in a 
sufficient supply.\4\ By the year 2050, the global population is 
expected to exceed nine billion people. Nearly all of the growth is 
expected to occur in developing countries. Feeding nine billion people 
will demand that food production is increased by 70% and more 
specifically, that food production in the developing world double.\5\ 
Meeting these growing demands will be critical if we hope to maintain 
political stability in increasingly volatile regions across the globe.
---------------------------------------------------------------------------
    \4\ USDA. Food Security. http://www.usda.gov/wps/portal/usda/
usdahome?navid=food-security.
    \5\ How to Feed the World 2050: Global agriculture towards 2050. 
High-Level Expert Forum. Food and Agriculture Organization (FAO). Rome 
October 12-13, 2009.
---------------------------------------------------------------------------
    Food insecurity and scarcity is well known to be one of the most 
potent drivers of political instability and social unrest. In fact, 
according to the Lugar Center, ``global food security has both foreign 
policy and national security implications for the U.S. Diplomatic 
efforts to maintain peace and stability are much more difficult 
whenever there are food shortages contributing to extremism and 
conflict''.\6\ Perfect examples of this have been seen throughout the 
Middle East and North Africa, where countries import over \1/2\ of 
their food.\7\ Food insecurity in this region often leads to underlying 
structural pressures that can result in rioting and other public 
displays of dissatisfaction, or sociopolitical instability. In fact, it 
is well documented that although the Arab Spring was not about food 
insecurity, it is likely that the rapid rise in international food 
prices caused middle class urban populations in these regions to 
experience acute food insecurity, which provided the necessary 
motivation for the people to generate unrest.\8\ Therefore, it is easy 
to see how U.S. investments in food security and nutrition for 
developing countries and areas of conflict is in the interests of the 
U.S., as international food security and U.S. national security are 
tightly intertwined.\9\
---------------------------------------------------------------------------
    \6\ Global Food Security. The 2050 Challenge. The Lugar Center. 
http://www.thelugarcenter.org/ourwork-Global-Food-Security.html.
    \7\ Barrett, Christopher B., ed. Food Security and Sociopolitical 
Stability. Oxford University Press, 2013.
    \8\ Food Insecurity and Unrest in the Arab Spring. Thomas Tree, 
Sept. 7, 2014. http://www.e-ir.info/2014/09/07/food-insecurity-and-
unrest-in-the-arab-spring/.
    \9\ Food, national security intertwined, experts say. Eric 
Mortenson. Capital Press, June 18, 2015.
---------------------------------------------------------------------------
Threats and Vulnerabilities of the U.S. Agricultural System
    As I testify before you today, U.S. citizens reap the benefits of a 
robust agricultural industry that provides them with access to a safe, 
abundant and affordable food supply that is readily available on the 
shelves of grocery stores nationwide. This is indeed a privilege that 
as you well know, does not exist globally. However, the very elements 
that make the U.S. agricultural system robust and productive also make 
it vulnerable to a natural or intentional introduction of a biological 
agent. In fact, perhaps now, more than anytime in our history, the 
agricultural industries are at risk from a variety of threats that have 
the potential to severely disrupt our economy, our food supply and 
cause great harm to our public health sector.
    Threats to our U.S. agricultural system can come in a variety of 
forms to include a natural introduction of a foreign (transboundary) 
animal, emerging, and/or zoonotic disease or an intentional 
introduction of a biological agent (agro-terrorism) into our 
agricultural systems. These threats would result in significant 
morbidity and/or mortality, cause great economic harm, adversely impact 
and/or disrupt our food supply and/or contribute to an adverse public 
health event. Many of these agents do not require weaponization, can be 
easily obtained, and exist naturally in areas in which terrorist groups 
such as the Islamic State (ISIS), al-Qa'ida, al-Shabaab, Boko Haram, 
and others who intend to harm the U.S. operate. In addition, the risk 
from emerging infectious and/or zoonotic diseases continues to threaten 
our animal, plant, and public health sectors.
    The U.S. agricultural and public health systems, while free from 
devastating diseases such as Foot and Mouth Disease (FMD, since 1929), 
African Swine Fever (ASFV), Rift Valley Fever (RVF), and other highly 
pathogenic livestock and zoonotic diseases, are becoming increasingly 
at risk for an introduction of these and/or other emerging and/or 
zoonotic diseases. Impacts resulting from an introduction of a high 
consequence disease, agro-terrorist and/or bioterrorist agent into U.S. 
agricultural systems have been studied and published in peer reviewed 
journals. Studies indicate that the magnitude and severity of an 
introduction of a high consequence disease into U.S. livestock or 
poultry herds/flocks would be large. For example, a study recently 
completed by Kansas State University researchers predicted that costs 
associated with an FMD outbreak in the midwestern U.S. could result in 
a total of $188B in losses to the livestock and allied industries and 
up to $11B to the U.S. Government.\10\
---------------------------------------------------------------------------
    \10\ Economic impact of alternative FMD emergency vaccination 
strategies in the Midwestern united states. Ted C. Schroeder, Dustin L. 
Pendell, Michael W. Sanderson, and Sara Mcreynolds. Journal of 
Agricultural and Applied Economics. Volume 47, Issue 01, Feb. 2015. Pp. 
47-78.
---------------------------------------------------------------------------
    In addition to publications highlighting the economic and social 
impacts of a disease incursion, we have learned first hand from recent 
experiences that the social, economic, and political fall out from 
emerging disease incursions can be devastating. In fact most recently, 
the U.S. has witnessed the incursion of porcine epidemic diarrhea virus 
(PEDv) in our swine herds (2013), highly pathogenic avian influenza 
(HPAI) in our poultry populations (2015) and last but certainly not 
least Ebola virus (EBOV) disease in our public health sector (2014). 
This demonstrates our vulnerability to newly emerging and re-emerging 
pathogens.
    In the case of PEDv, the cause and route of introduction into the 
U.S. swine population has still not clearly been elucidated. 
Nevertheless, over \1/2\ of the U.S. sow population was infected with 
PEDv, and the industry lost 10% (7M) of the piglets born to these sows 
during this outbreak.\11\ More recently, the introduction of HPAI virus 
into the U.S. poultry population resulted in approximately 7.5M (7.5%) 
of the U.S. turkey population and 41.1M (10%) of the commercial chicken 
population being depopulated. The total indemnity costs for this 
outbreak was approximately $191M.\12\ The PEDv and HPAI outbreaks have 
reminded us that although we have made significant progress as a nation 
and as a sector preparing for both natural and intentional 
introductions of transboundary, emerging and zoonotic diseases, they 
remain continual threats to the U.S. agricultural system and we still 
have a tremendous amount of work to accomplish.
---------------------------------------------------------------------------
    \11\ PEDv Dominates the Pig World. Gene Johnston. September 11, 
2014. http://www.agriculture.com/livestock/hogs/health/pedv-dominates-
pig-wld_284-ar45068.
    \12\ Update on H5Nx, Mia Torchetti, U.S. Department of Agriculture 
Animal and Plant Health Inspection Service, National Veterinary 
Services Laboratories, August 18, 2015.
---------------------------------------------------------------------------
    It was during the 2014 Ebola virus outbreak in the U.S. where the 
meaning of the term ``One Health'' took on a new significance and some 
of the greatest lessons were learned and largest gaps in biodefense 
highlighted. Gaps that were highlighted include but are not limited to: 
(1) a lack of available, licensed medical countermeasures (MCMs), (2) a 
lack of available scientific evidence to support informed decision 
making on the risk of EBOV infections in companion animals and 
livestock to our public health sector, (3) a lack of available training 
for veterinarians, state and local animal health workers, first 
responders, and our medical counterparts that would properly prepare 
them for handling a high consequence zoonotic event, (4) a lack of 
policies and procedures that define appropriate handling of 
contaminated medical waste, and (5) a lack available scientific 
evidence to support informed development of policies and procedures for 
appropriate handling/care of potentially exposed companion animal and 
livestock. As such, it was during this outbreak that the term ``One 
Health'' came to the forefront for the majority of the veterinary and 
medical community.
    This increased risk of the above mentioned threats to the U.S. 
agricultural and public health systems can be attributed to several 
social, environmental, and economic factors. First, there is increased 
movement of people, animals, plants, and products globally. Global 
commerce and air traffic moves at speeds that defy the ability to 
detect and prevent movement of diseases from their source in the early 
stages before detection. Indeed, animals and people can move and travel 
prior to clinical signs of a disease, thus arriving in another country 
already infected and able to spread the disease to people or animals 
they come in contact with. Second, trends in livestock production in 
the U.S. have resulted in more specialized, intensive, and concentrated 
farming practices where large numbers of animals are produced on a much 
smaller number of premises. These vertically integrated systems manage 
movements of animals and animal products to ensure a ``just-in-time'' 
delivery to the next location (e.g., feedlot, finisher, packer, and 
retailer) in the food production system. Our livestock production 
systems execute a large number of animal movements daily. As an 
example, it is estimated that approximately 1M swine and 400K cattle 
are in transit to the next location in the production system at any one 
time during the day. An introduction of an agent either naturally or 
intentionally into these intensive farming systems could lead to wide-
spread distribution through these movements within hours of its 
introduction into the system. Furthermore, in the event of a disease 
outbreak in which a ``standstill'' or quarantine of animal premises is 
the primary control strategy implemented in the U.S., maintaining 
business continuity through the controlled movements of animals is 
critical for food security and animal health and welfare.
    Next, obtaining agents that can be utilized to promulgate an agro-
terrorist event and/or a bioterrorist event against our agriculture and 
public health sectors does not require advanced capabilities. Many of 
the agents on the list of those most likely to be utilized to execute 
an agro-terrorist and/or bioterrorist event (such as FMDV, ASFV, and 
Ebola) are readily available in countries throughout the world and do 
not need advanced capabilities or weaponization. As mentioned 
previously, these agents are readily available in countries in which 
terrorist groups such as the Islamic State (ISIS), al-Qa'ida, al-
Shabaab, Boko Haram, and others who intend to harm the U.S. operate. 
Last but certainly not least, we must not overlook the natural 
occurrence and emergence of diseases whether agricultural or zoonotic. 
Factors that lead to the emergence of disease include changes in 
socioeconomic, environmental and/or ecological circumstances.\13\ It 
has been estimated that over 75% of all emerging pathogens are zoonotic 
and that zoonotic pathogens are twice as likely to be associated with 
an emerging disease than non-zoonotic pathogens.\14\ In addition, there 
are approximately 320,000 unknown viruses that infect mammals and that 
have not yet been identified and/or characterized.\15\
---------------------------------------------------------------------------
    \13\ Global trends in emerging infectious diseases. Nature. Kate E. 
Jones, Nikkita G. Patel, Marc A. Levy, Adam Storeygard, Deborah Balk, 
John L. Gittleman, Peter Daszak. Volume 451; 21FEB2008.
    \14\ Taylor, L.H., Latham, S.M., Woolhouse, M.E. 2001. Risk factors 
for human disease emergence. Phil. Trans. R. Soc. Lond. 356:983-989.
    \15\ Anthony, S.J., et. al. 2013. A strategy to estimate unknown 
viral diversity in mammals. M. Bio. 4:e00598-13; doi: 10.1128/
mBio.00598-13.
---------------------------------------------------------------------------
    Although the social, environmental and economic drivers of risks 
are critical to understanding the threats to the sector, there are 
additional factors that contribute to the vulnerability of the U.S. 
agriculture and public health sectors. For many of the diseases that 
threaten our industries, we lack the necessary MCMs for early 
detection, identification, response, and recovery. Although we have 
made significant advances with the U.S. licensure of the first FMD 
vaccine that could be manufactured in the U.S. and the validation and 
deployment of molecular assays capable of supporting early detection 
and response to the National Animal Health Laboratory Network (NAHLN), 
in order for us to effectively detect, identify, characterize, respond 
to, control, and recover from an outbreak of a known or emerging 
pathogen, we still have much to accomplish.
Critical Needs Remain for Protecting U.S. Agricultural and National 
        Security
    In order to mitigate these threats and vulnerabilities and protect 
U.S. agricultural and national security, we must act immediately to the 
critical needs remaining to be addressed. There is a critical need for 
development and licensure of additional vaccines for the remaining 
serotypes of FMDV and other high consequence animal and zoonotic 
disease agents (Classical Swine Fever (CSF), ASFV, Hendra virus, RVFV, 
Ebola, etc.). Along with the vaccines, we must develop and validate new 
diagnostic technologies to help us detect and identify both known and 
emerging pathogens. We must develop, in collaboration with the 
industries and stakeholders, policies and procedures to allow for an 
appropriate response to emerging disease affecting our industries. In 
addition, we must work closely with our end-users, stakeholders, and 
first-responders to develop a robust, integrated biosurveillance system 
capable of capturing and analyzing data on animal, human and wildlife 
health. This same biosurveillance system must simultaneously provide 
useful information and incentives to encourage data owner 
participation. We must work to develop data elements and standards that 
can be utilized across the agriculture and public health sectors and 
simultaneously work to develop policies that will allow for efficient 
sharing of data while working to protect the confidentiality of the 
data owners. We must work to identify incentives and provide rewards 
for participation in early disease reporting among our agricultural and 
public health sectors. We must work to prepare our first responders, 
veterinary workforce and our medical counterparts through robust 
training programs in early recognition, disease response, personal 
protection, and biosafety. And finally, we must work to support our 
state, local, and tribal governments in the development and exercising 
of response plans. In order to accomplish these lofty goals, we must 
work in multi-disciplinary teams to leverage knowledge and resources. 
We cannot simply discuss the ``One Health'' concept, but we must 
embrace it fully and ensure it is institutionalized across disciplines 
and recognize the value of working together to protect the U.S. 
agriculture and public health sectors, for indeed a healthy 
agricultural system equates to a safe and secure food supply and a 
healthy public health sector.
    The ability to protect our agricultural industries, food supply, 
and public health sectors from natural introductions of biological 
agents, agro-terror threats, and emerging and re-emerging diseases is 
heavily dependent on an organized, strategic, and well funded approach. 
This approach should institutionalize the ``One Health'' concept, be 
highly collaborative in nature, leverage all available resources and 
encompass an international, global health component.
    Since the formation of the U.S. Department of Homeland Security 
(DHS) in 2002 and with the release of Homeland Security Presidential 
Directive 9: Defense of United States Agriculture and Food (HSPD-9), 
DHS has assumed the responsibility to coordinate the overall national 
effort to protect the critical infrastructure and key resources of the 
U.S., which includes agriculture. However, the U.S. Department of 
Agriculture (USDA) still has the primary responsibility for protecting 
the agricultural sector \16\ and does so with support from additional 
agencies to include the Department of Health and Human Services (DHHS), 
the Department of Interior (DOI), the Environmental Protection Agency 
(EPA), the Federal Bureau of Investigation (FBI), the Central 
Intelligence Agency (CIA), the Department of Defense (DOD), and the 
Attorney General (AG). Despite interagency agreements that exist, the 
coordination of a comprehensive biodefense program against agricultural 
and human health threats is lacking. To date, an organized, multi-year, 
well-funded strategy and commitment has not materialized.
---------------------------------------------------------------------------
    \16\ Public Health Security and Bioterrorism Preparedness Response 
Act, 2002. http://www.gpo.gov/fdsys/pkg/PLAW-107publ188/pdf/PLAW-
107publ188.pdf.
---------------------------------------------------------------------------
    For example, recent statistics indicate that during the FY 2014, 
61% of Federal funding for biodefense was allocated to the Department 
of Health and Human Services (DHHS). By comparison, 1% of Federal 
Government funding for biodefense was allocated to the USDA for 
agricultural biodefense. Perhaps just as significant is the discrepancy 
between funding for the Strategic National Stockpile (SNS, the U.S. 
national repository of antibiotics, vaccines, chemical antidotes, 
antitoxins, and other critical medical equipment and supplies), $510M) 
\17\ when compared to its sister entity, the National Veterinary 
Stockpile (NVS, <$4M). Likewise, in 2007, the Laboratory Response 
Network had an annual budget of approximately $50M \18\ while the 
animal health laboratory equivalent (the National Animal Health 
Laboratory Network (NAHLN) receives only $6M annually to support its 
operations. If the nation is to establish a robust biodefense strategy 
that includes a commitment to institutionalize the ``One Health'' 
concept, funding levels must be increased to the agricultural sector 
and strategically utilized. Only then will robust interdisciplinary 
research programs and MCM development that include U.S. agriculture 
begin to keep pace with and complement ongoing activities within the 
human health and public health biodefense program. Of course, 
appropriate metrics and accountability of the dollars must accompany 
any increase in funding and this could be accomplished by an 
interagency/industry panel such as the recently suggested White House 
Biodefense Coordination Council.\19\
---------------------------------------------------------------------------
    \17\ Federal Agency Biodefense Funding, FY2013-FY2014. Biosecurity 
and Bioterrorism: Biodefense Strategy, Practice, and Science. Volume 
11, Number 2, 2013. Pp. 196-216.
    \18\ State Public Health Laboratories: Sustaining Preparedness in 
an Unstable Environment. March 2009, Association of Public Health 
Laboratories.
    \19\ A National Blueprint for Biodefense. A Bipartisan Report of 
the Blue Ribbon Study Panel on Biodefense. October 2015.
---------------------------------------------------------------------------
Conclusions
    The U.S. agricultural sector is critically important and intimately 
linked to the national security of the United States. The agricultural 
and allied industries are leaders in world food production and provide 
the citizens of the U.S. the safest, most affordable food supply on the 
globe. At the same time, these industries are under tremendous 
pressures from external forces and as such, they are also extremely 
vulnerable to a wide-range of biological threats. Obviously, protection 
of this critical infrastructure is vital to maintaining a safe, 
affordable, and secure food supply, protecting public health from 
emerging and zoonotic diseases, and maintaining social and political 
stability at home.
    Since the events of 2001 and the implementation of several key 
homeland security presidential directives, we have made significant 
advances in preparing our agricultural sector to face the challenges 
posed by a natural or intentional (agro-terrorism) introduction of a 
biological agent. However, as demonstrated recently during the PEDV, 
HPAI and EBOV outbreaks, we are often reactive in nature and less 
proactive when it comes to preparing for the next emerging biological 
threat. As such, it is critically important that the U.S. government 
and its private partners come together and work to add both a sense of 
urgency and direction to the nation's biodefense preparedness efforts. 
The recent report from the Blue Ribbon Study Panel on Biodefense (A 
National Blueprint for Biodefense: Leadership and Major Reform Needed 
to Optimize Efforts <SUP>[20]</SUP>) provided strong recommendations 
for building a blueprint to address our nation's gaps. The report's 
authors called for appointing a central leader with the authority to 
institutionalize biodefense and the ``One Health'' initiative. In 
addition, the authors recommended the formation of a White House 
biodefense coordination council composed of representatives from 
Federal agencies, stakeholders and private industry. The formation of a 
biodefense panel would allow for greater coordination and provide a 
platform for the development of a more cohesive and collaborative 
national biodefense strategy. Furthermore, a leader and/or council that 
could assemble a robust team of Federal and industry partners could 
help lower barriers that prevent our ability to truly implement the 
``One Health'' initiative. Barriers to this could be overcome with 
time, collaboration, interdisciplinary programs and budgets to support 
and incentivize working together to prepare our nation for the next 
emerging disease event. Indeed, the One Health concept must be 
understood, adopted and become part of the fabric of the way in which 
we approach biodefense.
---------------------------------------------------------------------------
    \[20]\ [A National Blueprint for Biodefense: Leadership and Major 
Reforms Needed To Optimize Efforts, Blue Ribbon Study Panel on 
Biodefense, October 28, 2015.http://www.biodefensestudy.org/SiteAssets/
Pages/default/1425-2139_BRSP_Report_100815b%5b1%
5d%5b6%5d.pdf]
---------------------------------------------------------------------------
    Finally, Chairman Conaway, Vice Chairman Neugebauer, Ranking Member 
Peterson, and Members of the House Committee on Agriculture, I want to 
thank you for this opportunity to speak to you regarding the importance 
of agriculture to national security. I look forward to your questions.

    The Chairman. I thank our witnesses this morning.
    The chair would remind Members they will be recognized for 
questioning in order of seniority for Members who were here at 
the start of the hearing. After that, Members will be 
recognized in order of arrival. I appreciate the Members' 
understanding.
    In a break from the norm, I am going to recognize Mr. Kelly 
to take my 5 minutes. He normally has to wait, he and Mr. 
Newhouse have to wait, so my 5 minutes will be taken up by Mr. 
Kelly.
    Mr. Kelly, you are recognized for 5 minutes.
    Mr. Kelly. Thank you, Mr. Chairman. And thank you, 
witnesses. Thank you, Doctor, for your service, and, 
Ambassador, for yours also.
    Very briefly, I never got to see you in Iraq, but I was 
over there at the same time that you were. And most of this 
focuses on the defense or making sure that we protect our 
national interests in agriculture. But there is also a very 
strategic interest in the way that we use agriculture as a 
tool, as an offensive tool to help us in our strategic 
interests overseas. I had a young captain, who was older than 
me, but a captain in Iraq, Captain Jessie Cornelius, who was an 
agriculture teacher at home, during my first tour in Iraq, and 
I dealt mostly with the Al-Hillah Embassy there, but he was 
very, very good in understanding how we could use agriculture 
as an offensive tool to help plug into the culture there in 
Iraq and help them learn how to irrigate better. So I would be 
interested not just in the defensive aspects, but how we can 
use agriculture either in combination with our military units, 
or also as civilian organizations to strategically help the 
United States in other regions.
    Mr. Negroponte. Right. I think your point about using it as 
a tool is right on the mark in the sense that these countries 
have to also try to take a chapter out of our book.
    If there wasn't so much corruption in a lot of these 
countries, surely they would have used more of their resources. 
I am thinking of states that are failing and are not meeting 
the needs of their population, and where the subsistence 
farmers are leaving the countryside, leaving the country of 
Syria, for example. If they had had more stable institutions 
and invested some of that money in developing their 
agriculture, having an extension service, if you spend all your 
money, like Saddam did, on building palaces, there isn't much 
left for improving the irrigation system. Governance, after 
all, is a really critical issue in all of this. So absolutely, 
there is a lot to do in encouraging supply chain development, 
various kinds of techniques, and here we are very much a good 
example for the rest of the world, a strong agricultural 
education system. You can't just say that farming is for 
uneducated people, and carry around that sort of social 
prejudice in your mind. You have to help farmers become smart 
like everybody else, because that is the new world we are 
operating in.
    Dr. Beckham. I would just say that, yes, absolutely, it is 
incredibly important when working internationally that we 
utilize agriculture to develop relationships. It helps us work 
to develop those relationships, understanding what is going on, 
on the ground, and developing those relationships helps us 
gather intelligence of the diseases that are out there, 
obviously, that could come to the U.S.
    I know the USDA Foreign Agricultural Service and APHIS do 
work a lot internationally, as well as universities are 
spending a lot of time internationally training folks on 
protecting their animals from diseases, and many of the 
zoonotic diseases as well. But education and extension and 
helping folks set up and understand how those diseases are 
affecting their populations are critically important for us to 
maintain our national security, but also for us to help folks 
on an international level. So I would agree.
    Mr. Kelly. Thank you. And then, Ambassador, just very 
briefly, U.S. agriculture is critical to our infrastructure 
here in the United States. A nation that can feed itself is a 
nation that can survive anything--logistics. What do you see as 
our major vulnerabilities to outside threats, in a minute 
please?
    Mr. Negroponte. Vulnerability in--I didn't catch the last 
part. Major vulnerability?
    Mr. Kelly. From outside threats.
    Mr. Negroponte. With respect to our agriculture here in the 
United States? Well, I suppose you could probably think of 
several. One, of course, would be if the lanes of communication 
breakdown somehow, the trade routes around the world. So that 
is an important national security aspect. If some of our allied 
countries experience serious agricultural failures, that could 
be prejudicial if it were one of the NATO countries or Japan or 
South Korea or Australia. So indirectly, we would be affected 
by that. And then, of course, we have been talking about the 
threat of disease if, particularly animal disease, were to come 
into the country.
    We had some very successful programs in Mexico that go back 
half a century, like defeating the Screwworm disease in Texas 
and pushing it into Mexico, and ultimately, during the time I 
was there about 25 years ago, ultimately pushing the Screwworm 
entirely out of Mexico itself and down into the Central 
American Isthmus. That was an example of very successful 
international cooperation between us and other countries on 
defeating a very serious animal disease.
    The Chairman. The gentleman's time----
    Mr. Kelly. Thank you, Mr. Chairman. And I yield back.
    The Chairman. The gentleman's time has expired.
    Mr. Peterson, 5 minutes.
    Mr. Peterson. Thank you, Mr. Chairman.
    Ambassador, in your testimony you spoke about a global 
trend being skepticism of science. And it is interesting to me 
that consumers seem to embrace technology in every other part 
of their lives, with the exception of the food they eat. Is 
there anything we can do to reverse this trend?
    Mr. Negroponte. Well, it has been a major challenge for our 
scientific community and for some of our advanced agro-
scientific industrial companies, like Monsanto and others. We 
seem to run into that issue more in Europe than anywhere else, 
although the countries that are also under the influence of 
Europe and the influence of their assistance programs as well.
    You have to keep pressing these issues in trade 
discussions. I think that there has to be more and more 
dialogue. Clearly, modern science and biotechnology has an 
important role to play in increasing agricultural production, 
and helping protect agricultural products and crops and plants 
from disease. I think it is a question of continued education 
and dialogue between the scientific communities of the 
countries concerned. And over time, I suspect, especially if, 
as we predict, the world population is going to go to nine 
billion people, and agricultural production globally by 2050 
has to increase by 50 or 70 percent, people are going to 
finally have to accept that science is our friend in this 
enterprise.
    Mr. Peterson. Thank you.
    Dr. Beckham, you have talked about the lack of adequate 
funding for research, and I also wonder if we are doing an 
adequate job in terms of understanding the vulnerability that 
we are creating by the increase in trade. It seems to me that 
we have exposed ourselves by opening up the economy to allow 
trade with countries that don't have the same standards that we 
do, and I am not sure we have the resources in place to make 
sure that they are doing what they should do before that stuff 
comes in. I was wondering what you think about the whole issue 
of funding being adequate to address these concerns. Obviously, 
the high-path avian influenza, you can't do much about the 
ducks coming in from Canada, I don't think there is any way to 
intercept them. They can shoot them in Arkansas, but other than 
that I am concerned that we are not keeping up with the 
research and other aspects to combat the threat that is out 
there.
    Dr. Beckham. So I would agree with you. If you take a look 
at the funding that goes to agriculture, and one of the things 
that I pointed out, that there was a large discrepancy between 
the ag biodefense funding; between the biodefense funding that 
goes to HHS and that the monies go to ag, we really struggle to 
have the means available to us to develop countermeasures to 
combat things, like Foot and Mouth Disease, African Swine 
Fever, which is an emerging disease, we saw what PEDv did to 
the swine industry. Just having the ability to be flexible 
enough and to rapidly move with resources to address those 
issues, to implement robust biosurveillance capabilities, the 
IT infrastructure to support that, to incentivize our 
producers. We need resources to address all of those types of 
things and all of those countermeasures.
    I believe that having a budget, as small as it is, to 
address developing vaccines, to incentivize our public 
partners, our private partners to address those, to take on 
that vaccine production that clearly has no market here in the 
U.S., those are the types of things that we are going to have 
to address. And that is going to require more resources to go 
toward agricultural research.
    The same thing with Ebola virus. When the virus came into 
the country back in 2014, we had a companion animal that was 
potentially exposed, and we had no idea what the result of that 
was going to be and how we were going to handle that, and we 
had no medical countermeasures to address that for animals as 
well. So we need to increase our research. I pointed out the 
One Health component. That is critically important because most 
of these diseases are zoonotic and we need to be able to 
address that, and we need to be able to develop countermeasures 
that are effective to stamp it out in the animal population 
before it gets to the human population.
    And so we are in desperate need of additional resources on 
the agricultural side. Thanks.
    Mr. Peterson. Thank you.
    I yield back.
    The Chairman. The gentleman yields back.
    Mr. King, for 5 minutes.
    Mr. King. Thank you, Mr. Chairman. And I thank the 
witnesses.
    And I turn now to Ambassador Negroponte. I want to 
especially thank you for your service to this country; a long 
and varied service in extraordinary places. And we did first 
meet in Iraq, and I listened to the exchange here, Mr. Kelly, 
and it occurred to me not only did Saddam not spend any money 
on irrigation, but he shut the water off to the swamp Arabs to 
dry them out.
    Mr. Negroponte. Yes.
    Mr. King. And so I will restrain my following comment on 
that and broaden this discussion out a little bit.
    And that is, as difficult as it is for us here in the 
United States to get this right, and I have concerns about 
people who are trained inadvertently spreading high-path. AI, 
for example, I am not alleging that--concerns about it, even if 
we get it right in the United States, what is the degree of 
difficulty to get the educational system up for disease 
containment in other countries and around the world? We are 
talking about a global reach to this. That is a big question. 
But maybe in the center of that question could be, is there a 
country anywhere in the world that comes close to getting this 
right that we can model some things off of?
    Mr. Negroponte. Well, I am going to defer to Dr. Beckham on 
this, but I would say that the countries we can work with, 
generally speaking I would say, would be our allied countries, 
like in Europe and in Japan and Korea, Israel, where they have 
levels of education and training and experience that are 
similar in most ways to ours. There may be differences, but 
they are going to be of just degree only. So it is the advanced 
technological and scientific world with the powerful education 
systems that have to work together in support of trying to help 
build these capabilities elsewhere in the world. But I wouldn't 
be very optimistic in a country like Syria or Somalia that is 
confronting civil war that, let alone just get a family doctor 
or just a rudimentarily trained veterinarian is probably a huge 
challenge for them, but to get these sophisticated capabilities 
I would have thought might be quite difficult.
    Mr. King. I would accept that recommendation, as I do 
almost all of yours, and turn to Dr. Beckham for her response.
    Mr. Negroponte. I am sorry.
    Dr. Beckham. Thank you. So it is a complex question, and I 
would say that we do a lot to educate our veterinarians on the 
role that they play in responding to these outbreaks. I don't 
think that we are doing enough to continue that education out 
in the field. We have limited resources. We have right now, 
obviously, the foreign animal disease diagnostic course that is 
taught at Plum Island. We can send folks up to that to get 
trained on what these diseases look like, we can send them up 
and get them trained on how to collect samples and how to get 
testing done, but we don't do a really good job of providing 
continuing education out in the long-run for our veterinarians 
in the field so that they know what to do and how to handle 
these diseases when they get out there. We need to do that more 
broadly. And that is with our first responders as well, we need 
to be educating them either on the foreign animal disease or on 
the zoonotic disease side.
    Obviously, in the educational system and in veterinarian 
schools, we do educate them on what these diseases look like, 
that is part of the curriculum, but again, we can do more on 
that end, and we can do more, more broadly for the first 
responders.
    Mr. King. Well----
    Dr. Beckham. We do work with--go ahead, sorry.
    Mr. King. Thank you. I would just point out that with the 
high-path AI, we were looking at a taxpayer expense of a number 
that approaches or perhaps exceeds $1 billion----
    Dr. Beckham. Yes.
    Mr. King.--and that is not the impact on the industry 
expense, just taxpayer expense. Your projected potential 
liability for a Foot and Mouth Disease outbreak, which I 
understood to be for the United States, $188 billion in your 
testimony?
    Dr. Beckham. For the Midwest.
    Mr. King. Okay. Just for the Midwest?
    Dr. Beckham. Right.
    Mr. King. And so looking at the magnitude of that, what is 
your recommendation on livestock identification traceability, 
and an ability to be able to reduce the amount of quarantine we 
have if we are effective in our identification and 
traceability?
    Dr. Beckham. So obviously, that impact comes from the 
number of animals that you have to stamp out or put down or 
depopulate. It also comes from the inability of sectors to move 
their products and their animals. And we know that with, for 
instance, the swine industry, they are very integrated, they 
need to be able to move animals and animal products. So that is 
where you see those types of numbers start to build up, and 
that is the impact to the industries, and you well know this.
    As far as being able to do traceability, obviously, during 
any kind of disease outbreak, you have to be able to quickly do 
trace forwards and trace backs, understand where those animals 
have come from and where they are going to. And the only way 
that you are going to be able to do that is have robust records 
that don't take you days in a state animal health official's 
office to flip through boxes to get to that. So we need some 
sort of system, much like what the swine industry has 
implemented, the premise ID system, that can reduce that number 
of days to get back to movements of animals and animal 
products.
    Mr. King. Just in conclusion, digital real-time and 
industry-driven.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. The gentleman's time has expired.
    Mr. McGovern, 5 minutes.
    Mr. McGovern. Well, thank you, Mr. Chairman. And thank you 
both for being here. I appreciate it.
    Ambassador, I am a big fan of your wife, Diana, by the way.
    Mr. Negroponte. Okay.
    Mr. McGovern. I just want to say that for the record.
    This whole topic of how agriculture relates to our national 
security is important because usually when we talk about 
national security, we usually only talk about the military 
relationship to it. Because a good robust agriculture leads to 
food security, leads to more stability in other countries, 
leads to enhancing our own security. We have some great 
programs out there to help people in other parts of the world 
create sustainable agriculture to help feed their communities. 
That is a good thing. Programs like Feed the Future come to 
mind.
    Mr. Negroponte. Yes.
    Mr. McGovern. And we have programs like Food for Peace, the 
McGovern-Dole School Feeding Program. I visited a pilot program 
in Colombia several years ago when Ambassador Patterson was the 
ambassador----
    Mr. Negroponte. Yes.
    Mr. McGovern.--and this is a program where we provide food 
to entice kids to go to school. And a young mother told me 
about her son who is 11 years old, who every day they tried to 
recruit him for the FARC guerillas or the paramilitaries to 
join one of the armed actors, and they promised the mother they 
would feed the kid.
    Mr. Negroponte. Yes.
    Mr. McGovern. And now, she said because of this program 
that the U.S. had created, I don't have to make that choice, my 
son is in school, being fed nutritious food, learning how to 
read and write, and hopefully he will get out of the slum that 
they were living in. And so it seems to me the more we can kind 
of focus on this, the more people around the world like us, and 
the more people like us, the less they want to do harm to us. 
It is not a radical idea.
    But I just wanted to bring up one point here. I think we 
also have to be looking at food security at the domestic level 
as a national security issue. Mission Readiness, a nonpartisan 
national security organization made up of retired admirals, 
generals, and other military leaders, has taken an active role 
in promoting healthy nutrition among out nation's kids and 
military families. They found that \1/3\ of American children 
and teens are now obese or overweight, and nearly \1/4\ of 
Americans aged 17 to 24 are too overweight to serve in our 
military. The hard reality is that obesity and hunger are often 
two sides of the same coin, with unhealthy high calorie foods 
cheaper, and fresh fruits and vegetables more expensive. And 
they talked about the importance of our school feeding 
programs.
    Interestingly enough, our school lunch programs started in 
large part because young people were undernourished, and the 
military leaders were concerned about their fitness for service 
during World War II. So I would just be curious to hear any 
comments you have about the fact that in response to what 
Mission Readiness has said and how it relates to our security, 
that we are not even providing our own people the quality food 
that makes them ready for the military.
    Mr. Negroponte. Right. Well, of course, I am not 
particularly expert on that subject. I guess what I would say 
is just as a citizen, I am aware of the debate that goes on on 
these subjects and the tremendous amount of discussion that is 
happening around the subject of people's diets, and also the 
diets of people at different income levels. There seems to be a 
correlation between poor diet and obesity, and high incidents 
of diabetes and these kinds of things amongst lower-income 
groups, and that is something where there needs to be greater 
public awareness about so that it can be dealt with in our own 
society. We can also play a leadership role, our academic 
community, our research community can play a leadership role in 
influencing thinking on these subjects, both here and abroad.
    But to your point about the international agriculture, I do 
think that having a strong agriculture in any given country is 
going to be a real factor of stability. It is what is going to 
root people in the countryside, it is going to keep them from 
depleting it and pouring into the cities, with all the problems 
that that brings in terms of creation of slums and so forth. 
And it is going to increase their sense of self-sufficiency and 
self-worth. I think that having a healthy agriculture can be a 
really vital part of the political and security strength of an 
individual country, and we can point to various examples around 
the world of that being true.
    Mr. McGovern. Thank you.
    The Chairman. Does the gentleman yield back?
    Mr. McGovern. Yes.
    The Chairman. The gentleman yields back.
    Mr. Gibbs, 5 minutes.
    Mr. Gibbs. Thank you, Mr. Chairman. Thank you to our 
witnesses. It is interesting.
    Ambassador, you recollect a little bit about what has 
happened in the past. Obviously, national security and economic 
security in agriculture all fit together, everybody is in 
agreement with that, but I want to take a little bit of a 
different take. When you talk about this mechanism of 
technology, science, and I don't think enough people realize 
this so I am going to say it, but I can give you many examples, 
but the best example I have is corn production. In 1950, the 
U.S. national average of corn was 50 bushels an acre. When I 
started farming in 1975, to have a 100 bushel corn crop was 
considered good. That was to become my goal. Now we are doing 
almost twice that. And I don't know what the acres are that 
have declined, but we know the tillable acres in this country 
have been taken out of production--some acres have been taken 
out of production, obviously, urban sprawl and all that. And I 
can remember not too many years ago a 10 billion bushel corn 
crop was a big crop. Last 2 years, we had 14 billion bushel 
corn crops. So if we weren't doing--if American agriculture 
wasn't doing what we are doing we would have a food crisis 
already----
    Mr. Negroponte. Yes.
    Mr. Gibbs.--because we have less land to get that food 
from, and so our production has increased. And that is why 
people need to realize that it is science that is a big part of 
that, and if we are going to go forward, we have to adopt the 
science, we have to have sound science, and we have to make 
sure it is safe science, no disagreement about that. I think 
that our conversation and our trade talks and everything we do, 
we really need to emphasize that the reason we have food 
security is because American agriculture production has been 
able to increase based on technology and best managed practices 
and all that. So I just wanted to reemphasize that point. And I 
don't know if you want to expand on that or not.
    Mr. Negroponte. Well, just to say it is absolutely true, 
and also if you look at countries that are less well-off, very 
often the cost of the food basket is 20, 30, 40----
    Mr. Gibbs. Yes.
    Mr. Negroponte.--and in extreme cases, even up to 60 or 70 
percent of the family budget. Well, then at that point, you 
can't benefit from all the other elements of global prosperity 
in any way, shape or form. People themselves are going to get 
the message, especially in these enlarged countries that are 
looking to feed huge numbers of people, whether it is India or 
China or others, and it is going to be demanded by the 
populations of the world and the farmers.
    Mr. Gibbs. Well, when you are hungry, you only have one 
problem.
    Mr. Negroponte. Right.
    Mr. Gibbs. You know.
    Mr. Negroponte. That is correct.
    Mr. Gibbs. We have many problems in this country because we 
are not hungry, I guess.
    Dr. Beckham, we talk about funding for the zoonotic 
diseases, diseases passed from animals to humans, and in your 
testimony that is on the increase or potential increase, 75 
percent. You talk about the need for funding for USDA and that. 
How is the relationship between the USDA agency, APHIS, and all 
that work to prevent swine flu, avian flu, and all that, work 
with CDC? Does that relationship need to be better, how do you 
see that relationship on the human side versus the animal side 
with our scientists and the CDC?
    Dr. Beckham. Sure. So USDA, APHIS does have detailees that 
are at the CDC and that work in the zoonotic disease branch 
there, and during the Ebola virus outbreak it worked very well. 
There was a lot of communication between the USDA and the CDC, 
and they really quickly assembled a team to help us handle and 
put together procedures for handling animals that could be 
exposed. So we worked very well because we had to work across 
the human-animal interface.
    Having said that, we were assembling those teams pretty 
much with the help of AVMA on the fly, and so although it 
worked well, all too often we are very reactive, and putting 
something in place that is more of a structure around creating 
a joint team that is working on the preparedness side and not 
necessarily reactive would be good. That is going to require 
that the human health component see the animal health component 
as just as important, and that is going to require that there 
is some oversight that incentivizes folks to start developing 
policies and procedures, and doing research, interdisciplinary 
research. There are really critical challenges that we in the 
animal world need to be working with our human counterparts to 
address before they happen, not after they happen. So since the 
Ebola virus outbreak, there is research going on more----
    Mr. Gibbs. We might have a----
    Dr. Beckham.--probably more research will come from that.
    Mr. Gibbs.--coordination issue to make sure that our human 
and animal diseases scientists know the importance of what can 
happen on the animal side----
    Dr. Beckham. Right.
    Mr. Gibbs.--and that interaction. So that might take some 
leadership from Congress.
    Dr. Beckham. Right. Some incentivization.
    Mr. Gibbs. Okay.
    All right, thank you, Mr. Chairman. I yield back.
    The Chairman. The gentleman yields back.
    Ms. Plaskett, 5 minutes.
    Ms. Plaskett. Yes, thank you, Mr. Chairman. Good morning.
    I was very interested in this topic, and I am very grateful 
to the Chairman and Ranking Member for having this discussion. 
One of the things that one of my colleagues talked about were 
the countries that do this well. What are the countries that we 
feel present the most instability and are the biggest threats 
and concerns to the United States in terms of importing food 
into this country?
    Mr. Negroponte. You want to----
    Dr. Beckham. Well, I can address it from the animal disease 
perspective, because that is a serious threat to our food 
supply.
    So looking at areas of the world that have a lot of 
instability, and where the diseases that we are most concerned 
about are occurring, I mean you would have to take a look at 
the Middle East, you would have to take a look at Southeast 
Asia. Those are all areas, especially the Middle East, where 
you are seeing a lot of Foot and Mouth Disease moving across 
borders. You see a lot of African Swine Fever that is an 
emerging disease that is threatening Europe right now. If you 
take a look at how animals move in those regions, obviously, 
again, no borders----
    Ms. Plaskett. Yes.
    Dr. Beckham.--disease knows no borders. Those are real 
threats to our industry here because once something like that 
comes into the U.S., we are going to have a mess on our hands. 
PEDv actually got into the United States as well, and we are 
not exactly sure at this point how it came in. There are some 
theories about how PEDv came in. I think the best thing that we 
can do right now is start to scan the horizon, develop disease 
matrixes, look at what is happening overseas in areas that we 
are particularly concerned with, and get a good grasp on things 
that we should be looking forward to. Again, being proactive 
instead of reactive in those regions.
    Ms. Plaskett. Okay, thank you.
    Ambassador, did you have anything to add on that?
    Mr. Negroponte. Well, as far as the--identifying specific--
--
    Ms. Plaskett. Yes.
    Mr. Negroponte.--countries, I really don't, but I would say 
that in areas where we have actually engaged in discussions or 
trade talks, for example, I know that in the case of Mexico we 
had a lot of issues with Mexico about animal and plant health, 
and we were able to work our way through those issues, through 
dialogue, through ultimately having a trade agreement. And I 
can think of fruits and vegetables that were hard to get your 
hands on----
    Ms. Plaskett. Right.
    Mr. Negroponte.--before the North American Free Trade 
Agreement that we can now buy in the grocery stores here in 
this country. These issues are susceptible to solution, but the 
more dramatic cases of severe disease, I just wouldn't know 
what specific additional countries to mention.
    Ms. Plaskett. So when we talk about that and look at the 
other countries that pose those threats, is the fear, or the 
concern, more domestic, or is it in the food supplies or food 
coming from other countries? What is a bigger threat, do we 
believe, our own domestic possibility of disease and----
    Mr. Negroponte. Well, we----
    Ms. Plaskett.--and food contamination----
    Mr. Negroponte. Right.
    Ms. Plaskett.--or overseas and food that is imported here?
    Mr. Negroponte. Well, they are obviously interrelated, but 
it seems to me that as government--I am no longer a government 
official, but as somebody working on behalf of the United 
States, I would put priority on defending our own very precious 
agricultural system against these threats. So it emphasizes the 
importance of having constant surveillance and monitoring and 
tracking, and maintaining those capabilities. We were talking 
about earlier, there is a whole generation of people who are 
retiring now and it is important that those professionals and 
those experts be replenished in the supply of people working in 
our government who can help us defend against these threats.
    Ms. Plaskett. Right. Well, one of the things I am 
interested in when I ask this question is, in the Virgin 
Islands, most of our food is imported. We have a lot of our 
processed foods and our meats that are imported. And my concern 
is as to what the specific areas should be doing about food 
that is imported, but also we then have the real issue of those 
foods that we try to export having to deal with Customs and 
Border Protection and dealing with inspections that then cause 
foods to go bad.
    Mr. Negroponte. Yes.
    Ms. Plaskett. But the last thing that you talked about that 
I wanted to see if you would touch on is water security, 
because I as well, living on an island where it is water, water 
everywhere and not a drop to drink----
    Mr. Negroponte. Yes.
    Ms. Plaskett.--having a water supply that not only 
irrigates but also is drinkable water, and water that can 
sustain people over a protracted period of time----
    Mr. Negroponte. Yes.
    Ms. Plaskett.--is something that we think about quite 
often.
    Mr. Negroponte. Right, and it is a serious problem, 
especially acute in the Middle East and in some parts of our 
own country, but the Middle East is the area where you are 
seeing its greatest manifestations. And hopefully, we will 
learn the necessary lessons from that.
    Dr. Beckham did you want to add something on the----
    Dr. Beckham. No.
    Mr. Negroponte. Okay. All right.
    The Chairman. The gentlelady's time has expired.
    Mr. Crawford, 5 minutes.
    Mr. Crawford. Thank you, Mr. Chairman. Ambassador, Dr. 
Beckham, thank you for being here.
    Ambassador--actually, this is probably a question for both 
of you. Well, I will start with you, Ambassador. In 2013, the 
EPA released some personally identifiable information of 
poultry and livestock producers, and specifically, they had 
geospatial business, individual data, that was released 
pursuant to a FOIA request by environmental groups. USDA and 
DHHS have expressed some concern that release of this type of 
information poses a biosecurity risk. I certainly would agree 
with that.
    Do you agree that the aggregation and dissemination of 
detailed information on livestock facilities can pose a threat 
to bioterrorism, and what would you say to the EPA, and would 
you support proposals to caution them from that type of 
behavior in the future?
    Mr. Negroponte. Boy, well, we live in a society where 
Google publishes pictures of my front yard and the people who 
walk past it, so I don't know. You come up against this problem 
of freedom of information in this country, including what is 
being obtained through aerial reconnaissance of various sorts. 
I would have to look at the specifics before I were to give you 
a really strong opinion on that.
    Mr. Crawford. Dr. Beckham?
    Dr. Beckham. Obviously, data confidentiality is incredibly 
important to our industries, and I would caution them against 
that.
    I think it has been one of the things that has hampered 
biosurveillance in this country. There needs to be a way that 
we can move forward with a robust biosurveillance program, but 
at the same time, we need to be able to protect the data 
confidentiality of our industries, and we need to assure them 
that we can do that. And that is going to be a difficult road, 
going forward, but it is one that can be done if we work with 
the industries closely and build it from the ground up with the 
industries themselves. They more than anybody want to protect 
their animals against disease, and again, working from the 
ground up with them to develop a system that perhaps is not 
housed within the U.S. Government, but maybe housed somewhere 
else, where you could ensure them the protection from FOIA and 
the protection from those data leaks, are going to be 
critically important.
    There are some projects underway now that are looking at 
different ways of doing that, and they should be continued to 
be funded and supported, and they should continue to work 
closely with the industries as they are doing right now.
    Mr. Crawford. Dr. Beckham, there is a lot of attention, or 
at least the idea of the notion of failures of imagination when 
it comes to national security issues, I think that we can say 
that probably there was failure of imagination in regards to 9/
11. Who would have ever thought that something like that would 
ever happen? So my thought is that if I can conjure up ideas to 
threaten our food supply, for example, to introduce Foot and 
Mouth Disease in a feedlot, surely others who have ideas of 
threatening our food supply, and thereby threatening our 
national security, have thought of this. Are we failing in 
failure of imagination, are we taking these things into 
consideration, what protocols are in place to address that? I 
am not a devious-type person, but I can come up with these 
ideas, so I know that folks that are seeking ways to harm us 
certainly have ideas like that. So I would like to hear from 
you, and then, Ambassador, your thoughts on that as well.
    Dr. Beckham. So I don't think we are failing. I think we 
have made a lot of progress since 2001, and the USDA and 
Department of Homeland Security in the ag area, especially for 
livestock, have worked to make significant progress, that we 
just weren't there in 2001. So I don't think that we are 
failing. I think that we need to build on what we have done, 
and we need to more closely integrate ourselves with the public 
health sector, because I am bringing that back to the One 
Health. Obviously, Foot and Mouth is a huge concern, and it 
would not be hard to do. And we have made significant progress. 
We have the first vaccine that has been licensed that you can 
make within the United States, and so that is great, but we 
have that vaccine for one serotype. And while there has been 
additional research and there has been more vaccines for 
additional serotypes in the queue, again, we are still lagging 
behind on moving that innovation forward for just that disease. 
But then you take a look at ASF, PEDv, AI, all the other 
threats to the industry, so we are still lagging behind in 
that. Not to mention the biosurveillance that I talked about 
before. The integrated biosurveillance system is going to be 
critically important to help us get a leg-up on that early 
detection. Obviously, the faster you can detect something like 
that if it is introduced into a feedlot, the faster you are 
going to be able to control it. That is going to be really 
important. That is going to require additional funding to the 
National Animal Health Laboratory Network. It is going to 
require additional funding into the biosurveillance programs 
that I have talked about. And so in some of those areas we are 
not failing so much as we just need a more coordinated 
approach, and we need more resources to go in to getting us 
there faster, because it inevitably will happen. I mean we have 
been free from FMD since 1929. Not hard to introduce it. It is 
in all the areas that we just previously talked about. We 
prepare ourselves for both the natural and the intentional 
introduction, and we have to look at it from both perspectives, 
right, so we are preparing ourselves for both. We have built 
bio-forensics capabilities in the country for attribution, 
should we need that.
    Again, we are not failing. I think we could do more, but we 
certainly are not failing.
    The Chairman. The gentleman's time has expired.
    Ms. Adams, 5 minutes.
    Ms. Adams. Thank you, Mr. Chairman. And thanks to both of 
you for your testimony today.
    The recent outbreak of avian flu was highly detrimental for 
egg prices in the U.S., which negatively impacts consumers and 
our egg users in the baking and restaurant industry. Worse, 
disruptions in food supply hurt our most vulnerable.
    Ms. Beckham, while we can't stop every pathogen that 
travels through our ports of entry, what investments can we 
make to mitigate the damage from animal diseases that harm our 
nation's food?
    Dr. Beckham. Okay. So, yes, you are right, avian influenza 
took an impact. It may take an impact on the turkeys we have at 
Thanksgiving this year as well.
    The things that we can do, biosurveillance, I am going to 
go back to it, having a robust biosurveillance system, a robust 
early detection system, investing in the National Animal Health 
Laboratory Network, coordinating better with our public health 
sector, investing in more vaccine and research on the upfront 
end so that we are not reactive but we are proactive, training 
our first responders, coordinating with our state and local 
entities. Doing all of those types of things are going to help 
us better prepare. The earlier we detect it, the better we are 
going to be able to control it, and the faster we are going to 
be able to get it under control. And so doing all of those 
things will help us do that, and that is just absolutely where 
we have to continue to go.
    Ms. Adams. Thank you very much. And let me apologize for 
not referring to you properly, Dr. Beckham.
    The 12th District, which is the district that I represent 
in North Carolina, is home to my alma mater, North Carolina A&T 
State University, which includes the Plant Biotechnology 
Research Lab at Carver Hall on the campus. What opportunities 
are there for 1890 institutions to participate in research 
against crop diseases?
    Dr. Beckham. I can speak to opportunities with livestock 
diseases. I know that there are opportunities in funding, 
opportunities for those colleges to invest and work within the 
system, to do research for vaccines, do youth educational 
training opportunities, to train first responders, K through 12 
programs as well. So there are plenty of those types of 
opportunities out there. And when I was at Texas A&M, we did 
partner quite a bit to do that type of research with partners 
from 1890 universities.
    Ms. Adams. Okay. And finally, Dr. Beckham, one of the major 
diseases that concerns farmers and the agriculture industry is 
an outbreak of Foot and Mouth Disease in the United States, and 
you have made reference to that. If an outbreak occurred in 
North Carolina, how quickly and effectively could a vaccine be 
developed for U.S. livestock?
    Dr. Beckham. Okay, as you know, we have the North American 
Foot and Mouth Disease Vaccine Bank, in which we host here 
within the U.S., and we have antigen concentrates in that 
vaccine bank. If we were to have to deploy that, obviously, 
there is a process; you would have to detect Foot and Mouth, 
you would have to identify what the serotype of the Foot and 
Mouth Disease is because the vaccines are specific for each 
serotype. Once that has been done at Plum Island, then the 
Secretary of Agriculture has to activate the North American 
Foot and Mouth Disease Vaccine Bank. That antigen is then 
shipped over to Europe, prepared into a vaccine, and then 
shipped back. So we are talking within 3 to 5 days of a 
confirmation would we be ready to deploy vaccine. It could be 
more along the lines of the 5 days.
    Recently, I am also aware that USDA has moved to get access 
to supplies that are already prepared, and they are doing the 
safety testing on those vaccines as well so that they would be 
readily available, there wouldn't be a need to ship the antigen 
across the ocean to get it prepared into vaccine. And so there 
has been some of that movement as well. So DHHS, in 
coordination with USDA, are looking at different methods to 
have vaccine more readily available in a quicker fashion. 
Again, some of that is how quick you detect it and then how 
fast you confirm what it is, and you can serotype it and then 
get moving on the bank.
    Ms. Adams. Great. Thank you very much.
    Mr. Chairman, I yield back.
    The Chairman. The gentlelady yields back.
    Mr. Abraham, 5 minutes.
    Mr. Abraham. Thank you, Mr. Chairman. Dr. Beckham, you and 
I have a little commonality, being a veterinarian, and an M.D. 
Also, I am very interested and impressed with your knowledge on 
the zoonotic diseases. And as you said in your testimony that 
75 percent of the emerging pathogens are probably zoonotic in 
nature. And my concern is on the legislative front, this large 
discrepancy between DHHS and the USDA as far as biodefense 
allocations. Why do you think they--there is that wide chasm 
between both agencies, because they are fighting, hopefully, 
the same type of entity, why the discrepancy between the USDA 
and the DHHS as far as funding?
    Dr. Beckham. I don't think I can answer why because, 
obviously, I am not involved in the budget preparation and so 
forth. I, obviously, think there needs to be a hard look at 
that. And again, I take it back to that institutionalization of 
One Health concept about how you can incentivize those two 
agencies to work closer together, and to develop medical 
countermeasures for the zoonotic diseases.
    Mr. Abraham. Yes.
    Dr. Beckham. And in order to do that, I believe that you 
are going to have to have funding to incentivize more 
interdisciplinary and multidisciplinary teams.
    Mr. Abraham. Well, other than a major outbreak, which----
    Dr. Beckham. Yes.
    Mr. Abraham.--hope never happens----
    Dr. Beckham. Yes.
    Mr. Abraham.--what can we do as legislators to somewhat 
open the eyes of Congress to send more money to the USDA and 
their prevention program? Is there any program, anything we can 
jump on board with?
    Dr. Beckham. I think there could be a better centralized 
coordination approach, perhaps an appointment of someone that 
is over biodefense specifically that coordinates within an 
interagency group to start putting objectives and putting 
metrics in place. Then also funding increases or funding that 
is generically out there that incentivizes research that is 
done in a multidisciplinary fashion so that funding just 
doesn't go to one agency, and then there is no crosstalk 
between DHHS and USDA, but that there is funding out there that 
is available for common grants, whether it is in academia, USDA 
or DHHS, to address those in a more multidisciplinary fashion, 
but the fashion has to go for the multidisciplinary approach.
    Mr. Abraham. All right. And let me, I guess, pony on Mr. 
Crawford's question. As far as the individual farming entities, 
what they can do. Do we, as farmers and ranchers of the 
country, do they form cooperatives for biodefense measures? 
Where would you, if you could cherry-pick what you would do for 
our individual large and smaller farmers, ranchers----
    Dr. Beckham. Yes.
    Mr. Abraham.--as far as prevention, what would you say?
    Dr. Beckham. It is broad. What would I do for farmers for 
prevention? I believe educational opportunities in biosecurity, 
continuing to develop the business continuity planning efforts 
and explaining to them why it is important for them to 
participate in that, and the biosurveillance. I go back to all 
of those things. The biosurveillance, education for our farmers 
on the importance of biosecurity. While, obviously, the larger 
companies understand that, there are still large gaps in 
biosecurity, and even though we have business continuity 
planning efforts underway for the industries, and some of them 
have already been developed, they have not been implemented. 
And so that is a bigger problem is how you implement those 
business continuity planning efforts. Those types of activities 
within the industry itself will help get them better prepared. 
And then the other thing is involving them in decision-making, 
and making sure they are at the table. Talking about 
biosurveillance, working with the industries themselves. They 
want to participate, they want to be protected, but how can we 
do that and protect their data, how can we do that and protect 
their confidentiality, what does that look like. And so this is 
a role that academia has played recently, is kind of being the 
go-between between the industries themselves and the Federal 
Government. And in some ways that has worked really well 
because the industries are more likely to trust the land-grant 
universities. And when I was at Texas A&M, we actually worked 
on a biosurveillance project where we worked closely with the 
industries themselves and we were starting to get very good 
reporting from veterinarians and the industries, and they 
wanted to participate because they see the value in being able 
to use that data along with the business continuity planning 
data to allow them to move during a disease outbreak. And so if 
we can continue to educate and if we can continue to work with 
the industries one-on-one, and assure them that we want to work 
with them and protect their data and educate them, those are 
the things that will really help them in the middle of a 
disease outbreak.
    Mr. Abraham. Thank you, Mr. Chairman. I am out of time.
    The Chairman. The gentleman yields back.
    Ms. Lujan Grisham, 5 minutes.
    Ms. Lujan Grisham. Thank you, Mr. Chairman. And I know many 
of my colleagues, including Congressman King, really talked 
about whether we are doing enough as we are importing, Dr. 
Beckham, beef from other countries, and whether or not we are 
doing everything that we can to ensure that we are not 
reintroducing Foot and Mouth, and other zoonotic diseases, with 
the viral capacity to really not just threaten our food supply 
and the herds, but in my state, when I look at the agricultural 
footprint and the value and importance of our cattle and beef 
industry, we could lose whole herds and farms and ranchers. 
That is something that certainly my constituents, and I know 
not just in my state, but all of us hear a lot about and are 
very, very concerned about. And while your efforts here to 
educate and to do surveillance, and that public health 
environment, I have to say I really applaud that we have a 
robust surveillance, education, and monitoring system here. 
But, as you were describing our abilities to do that outside of 
the U.S., it is not as robust, and it seems to me that we have 
a long way to go to create that kind of environment.
    Is there anything else that you haven't had the time to hit 
on that gives us more confidence, because I am beginning to 
feel or be a little concerned that maybe that importation is a 
bit premature, given that we don't have those mechanisms in 
place in some of these other countries?
    Dr. Beckham. So we have to rely on strong scientific 
evidence that is either gathered from folks working on the 
international level. I know specifically what you are referring 
to. Obviously, risk analysis before importing any type of beef 
into the United States should be done. It should be a robust 
risk analysis based on scientific evidence. Industries need to 
play a role in that. And so all of those types of things need 
to occur.
    We do work within the OIE, the World Organisation for 
Animal Health. And in that structure there is reporting 
requirements for notifiable diseases such as Foot and Mouth 
Disease. But you are absolutely correct, I mean one missed step 
in that and one introduction and we are going to lose an 
industry or a significant part of an industry.
    So going back, it would be good for us to be able to expand 
to work with our international partners and develop 
relationships, to expand our biosurveillance outside of the 
U.S., which we talked about. The risk analyses, coming back to 
that, have to be very robust. Even though we do have a system 
here in the U.S., I wouldn't exactly yet call it robust.
    Ms. Lujan Grisham. All right.
    Mr. Beckham. I would say there is work still to do in the 
biosurveillance part. And so we do have a lot of work to do. 
And yes, it is a risk, and yes, we have to hold accountable the 
strong scientific evidence behind the risk analysis.
    Ms. Lujan Grisham. And I have no problem with the 
scientific evidence----
    Dr. Beckham. Yes.
    Ms. Lujan Grisham.--and I appreciate your caution about my 
statement that we have a robust system. In comparison to what I 
think our reliance----
    Dr. Beckham. Yes.
    Ms. Lujan Grisham.--and security levels are around the 
world, I would maybe say that my comments aren't so off-base. I 
am----
    Dr. Beckham. Right.
    Ms. Lujan Grisham.--happy to congratulate any of our----
    Dr. Beckham. Yes.
    Ms. Lujan Grisham.--government partners, but I appreciate 
your statement that we should be doing more, but I can't 
imagine you don't have our support to do as much as you need to 
be doing. I have no trouble with the way in which we use public 
health measures and epidemiology and scientific evidence to 
identify, treat, and prevent the occurrences, and certainly the 
spread, but what are we doing that creates accountability? I am 
not suggesting that we don't know what those other countries 
should do, but how do we hold them accountable? What can 
Congress do to make sure that that accountability is occurring 
more than identifying these are the strategies that we expect 
all these other countries--and if it is just a check, we did 
all these things, what are we doing, and what can we do to 
assure that there is real accountability in a global 
marketplace?
    Dr. Beckham. Again, we have to continue to work through our 
delegate, the USDA, with OIE and the World Trade Organization. 
Again, going back to the risk analysis, holding them 
accountable, and if they are not adhering to the standards, 
that we are able to verify those standards. It would be 
incredibly----
    Ms. Lujan Grisham. And----
    Dr. Beckham.--important for us to be able to do that.
    Ms. Lujan Grisham. All right. And with the limited time I 
have left, Mr. Chairman, I would encourage the Committee to ask 
USDA to write to us and identify exactly what we can do when we 
suspect that these are not being followed, and to enhance those 
efforts to the highest degree that we can, because it doesn't 
seem to me like we are feeling very secure about our 
accountability efforts.
    The Chairman. I thank the gentlelady. She yields back.
    Mr. Benishek, 5 minutes.
    Mr. Benishek. Thank you, Mr. Chairman. Well, thank you both 
for being here. Amazing resumes.
    Ambassador, you mentioned something to me that I didn't 
quite understand, and that is that the plight of subsistence 
farmers, you mentioned, in some of these foreign countries has 
gotten worse because of global trade. Can you explain that to 
me?
    Mr. Negroponte. Well, in many, probably most cases, as 
imported food supplies become available in various countries, 
they come in at lower prices than the local subsistence farmers 
can produce at. I gave the example of Mexico. The maize corn 
farmers there simply couldn't compete with imported American 
corn, so that ultimately had the effect of dislocating a lot of 
those farmers. Now, they could go into other products but that 
was what I meant.
    Mr. Benishek. I guess I have a different idea of what 
subsistence farming is then. I mean, to me, it was that they 
are growing their own food.
    Mr. Negroponte. Right.
    Mr. Benishek. Does that mean they still couldn't grow their 
food cheaper than they could buy it? I don't understand.
    Mr. Negroponte. No. No, I see your point. I meant 
subsistence in the sense of very small, low-level production 
that was lots of, literally thousands of these kinds of farmers 
who are growing their own food, but they are also supplying 
some people in their environments, but a lot of them have gone 
out of business as a result----
    Mr. Benishek. All right.
    Mr. Negroponte.--of these imports.
    Mr. Benishek. Let me just go on then. Dr. Beckham, tell me 
about this One Health thing that you mentioned a couple of 
times, a little bit more. I am not sure I understand that 
either.
    Dr. Beckham. One Health is the idea that human health, 
animal health, and environmental health are inextricably 
linked. And this is true. Obviously, you see the food supply 
directly impacting human health, disease impacting human 
health. A lot of the diseases, again, come from animals. So the 
concept of One Health is that working together across the 
disciplines, across the boundaries, that we are able to address 
the critical challenges that face us today globally. And so 
that is the idea behind One Health.
    One Health has been around for a very long time, but the 
term most recently has started to gather more and more 
momentum. I think as we saw, like I said, during the Ebola 
virus outbreak, we knew we had a One Health issue, but all too 
often sometimes, again, the human health side, obviously, as it 
should, takes precedence. But there will be one day when we are 
going to have an outbreak, and it is going to be very severe in 
livestock or wildlife, and humans, and we are going to have to 
look at how we address these things more from a holistic point 
of view, because in today's world I don't believe that we can 
just silo ourselves off and not address our issues and our 
challenges from a more holistic point of view.
    Mr. Benishek. I think many have said the United States 
lacks a coordinated biodefense strategy. And what do you think 
in the development of a coordinated biodefense strategy is one 
or two of the most important things to do? You did mention 
better coordination----
    Dr. Beckham. Yes.
    Mr. Benishek.--besides that, what else do you have to say?
    Dr. Beckham. I think having a council or a core panel that 
could coordinate biodefense activities across agencies, but 
that would also reach out to our industry partners and our 
stakeholders and bring people together to start looking at 
multidisciplinary ways of addressing the challenges----
    Mr. Benishek. We don't have anything like that now?
    Dr. Beckham. No.
    Mr. Benishek. Ambassador, do you have any comments on that 
question?
    Mr. Negroponte. I have been out of the government long 
enough to not know what mechanisms actually exist at the 
moment, but it is certainly a subject that people think about, 
but I am not sure there is an actual mechanism that exists to 
do that.
    Mr. Benishek. Well, in your initial comments you talked 
about the stability of the world in general, and the ability of 
local governments to feed their people as a major factor in 
that, and basically, you said in all your travels, agriculture 
is always brought up. What can we do better to stabilize this? 
What programs we have now and what can we improve----
    Mr. Negroponte. Well----
    Mr. Benishek.--to make that better?
    Mr. Negroponte.--we do, of course, have problems. The 
Agriculture Department has some, Feed the Future, and they 
contribute to giving scholarships to people to come from other 
countries. I think that is very important to the extent that 
knowledge and expertise can be spread.
    I think maintaining a presence, keeping eyes and ears of 
the Agriculture Department around the world is important. I 
think agricultural attaches are a great resource at the various 
embassies we have around the world. The Animal and Plant Health 
Inspection Service, they have people abroad. I think that is 
one of the issues that Dr. Beckham was alluding to, and also 
the Congresswoman who was asking about how you hold people 
accountable. We need to get those kinds of people out in the 
field and serving at critical countries and embassies around 
the world. For example, I know in the country of Nigeria, the 
most populous country in Africa, the agricultural attaches' 
office has been closed, and it is being covered as a regional 
responsibility in one of the other embassies on the continent. 
I think that is the kind of thing that maybe ought to be 
reconsidered. We need a robust presence of both out general 
agricultural experts and agricultural economists and our 
scientific people as well.
    Mr. Benishek. Thank you. I am----
    The Chairman. The----
    Mr. Benishek. I am out of time.
    The Chairman. The gentleman's time has expired.
    I now recognize Mr. Newhouse for 5 minutes of questioning.
    Mr. Newhouse. Thank you, Mr. Chairman. Thank you both for 
being here this morning. I appreciate your testimony and I 
appreciate both of your service.
    I am hopeful that Americans think about their food supply, 
but my guess is that they probably don't worry about it as much 
as many of us do. We rely on importations of a lot of food to 
make our food supply complete. With the potential of all kinds 
of things that can happen in this world; wars or some kind of 
an outbreak of some kind, do you think, Ambassador, should we 
be making plans for more secure domestic food supplies as well 
as farm inputs, and understanding that there is a balance of 
other countries' agricultural industries depend on customers 
abroad, but is there something more we should be doing to 
secure our domestic food supply in case of an adverse event?
    Mr. Negroponte. Well, I can't think of anything other than 
working as we do as a matter of national policy to try to keep 
the world a secure place. I mean that is going to be the best 
way we do it. We are blessed by having a rich agriculture and 
we are also blessed by having strong agricultural producers 
nearby, such as Canada. Compared to countries that import a 
substantial portion of their food needs, we are in quite a 
privileged position.
    Mr. Newhouse. Good shape, yes.
    Any thoughts, Dr. Beckham?
    Dr. Beckham. No, I would agree with that. I think we are in 
a privileged position, and we are doing a good job of securing 
the food system. I think we have, like I said, there is 
probably more we can do, but----
    Mr. Newhouse. Keep up what we are doing, basically.
    Dr. Beckham. Keep up----
    Mr. Newhouse. Yes.
    Dr. Beckham.--and continue to move forward with the 
innovation and the research, et cetera.
    Mr. Newhouse. So I come from the State of Washington where 
we have the notorious reputation, I guess, of being the place 
of the cow that stole Christmas back in 2003 in the Mad Cow 
Disease, which that was only a couple of miles from my home, by 
the way. You talked about our biosurveillance and detection 
systems, and made the clear point that they are not as robust 
as they should be or could be.
    Dr. Beckham. Yes.
    Mr. Newhouse. So could you give us some thoughts about some 
of the obstacles perhaps that are there, and some of the things 
that maybe we could help impact to improve that?
    Dr. Beckham. Sure. And let me say, I want to come back to 
we have made a significant amount of progress.
    Mr. Newhouse. Yes, all right. Right.
    Dr. Beckham. We have the National Animal Health Laboratory 
Network, we have the USDA supporting that network, DHHS 
supporting, that we have developed new diagnostic technologies. 
But what can we do? So early detection is always the key. So 
continuing to support the known and supporting the known to a 
higher level. In my testimony I pointed out what the LRN 
funding is as opposed to the National Animal Health Laboratory 
Network funding. And if you take a look at how those labs 
operate, I mean we are key to seeing any zoonotic diseases 
coming through those labs at any one point in time. So 
definitely enhancing the funding to the National Animal Health 
Laboratory Network. Biosurveillance, I come back to it, 
biosurveillance, robust biosurveillance depends on obviously 
the ability to get first responders involved, veterinarians out 
in the field collecting information, but it also depends on the 
ability to protect the data of the industry. And until we can 
do that, we are not going to have the robust biosurveillance 
system that we need.
    That biosurveillance system consists of veterinarians out 
in the field collecting information. We have it in more near 
real-time. We are beginning to develop mobile applications that 
can come back to a centralized location so you can take a look 
at anomalies in animal health. Continuing to work with USDA and 
DHHS. That is actually a DHHS-funded project, but it is in very 
strong partnership with USDA. I think that particular area, 
again, enhancing the known, having the countermeasures on the 
front side, all of those are things that we can do to ensure 
that we are----
    Mr. Newhouse. Okay.
    Dr. Beckham.--more prepared, that we catch it upfront, and 
that we can get it under control when it does happen.
    Mr. Newhouse. So you talked about the importance, and we 
learned this very well in Washington State about traceability 
and knowing your animals, where they came in contact, and where 
they have been and where they have gone. How are we doing 
nationally there?
    Dr. Beckham. Well, there are some projects out there. 
Obviously, the swine industry has the premises ID and that is 
really helpful for being able to take a look at where animals 
are moving and so forth. And so we worked very closely, 
actually, when I was at Texas A&M, with the swine industry to 
develop a biosurveillance system that is based on the prem ID 
and the movement of swine.
    The other industries, it is going to be a little bit more 
challenging, but looking at DHHS, again, has funded a project 
in biosurveillance where you can look at unique identifier, and 
as long as that data can be maintained confidentially and it is 
not subject to FOIA, those are things that we can work with the 
industries to move forward.
    If you ask right now how several states are doing it, a lot 
of it is paper-only, but I will say USDA recently invested, and 
with the State Animal Health Officials Offices in several 
different states, on a system that they deployed to hold a lot 
of their animal health----
    Mr. Newhouse. Right. Right.
    Dr. Beckham.--information. And so they are making progress 
in that, but we still don't have the real-time capability that 
we need, and sometimes during those trace-outs and trace-backs 
can be difficult.
    Mr. Newhouse. Yes, but essential. Yes.
    Dr. Beckham. Absolutely.
    Mr. Newhouse. We have to have them, yes.
    Dr. Beckham. Right. I have heard some state vets, and this 
was a while back, this is not recently. Again, I want to point 
out USDA has invested in a system, and they are in the process 
that has been deployed out into the states where they can 
actually have animal health information in those states 
collected into that system, and it is called USA Herds, and 
then there is another one out there----
    Mr. Newhouse. Yes.
    Dr. Beckham.--as well. But I will tell you, I have heard 
animal health officials say that they literally have to go into 
boxes and dig through where animals have moved to and from, and 
that is just not going to be a doable thing----
    Mr. Newhouse. Yes.
    Dr. Beckham.--and if it amounts to these outbreaks.
    Mr. Newhouse. Yes.
    Dr. Beckham. So we have to get more real-time, and we have 
to take advantage of the technologies, but most of all, we have 
to be able to incentivize the industry to utilize those 
systems. And the way that we are going to incentivize the 
industry is to give them something back. We can't just take, 
take, take, we have to give back. We have to give them back 
something that helps them in their production, and we have to 
ensure them that we are going to protect that data.
    Mr. Newhouse. Yes, absolutely.
    The Chairman. The gentleman's time has expired.
    Mr. Newhouse. Thank you very much.
    The Chairman. Mr. Davis.
    Mr. Davis. Thank you, Mr. Chairman.
    The wonderful opportunity we have to ask questions 
sometimes at the end of the hearing means that all the 
questions I had written have already been taken. But that is 
okay. My colleagues, they know I am never at a shortage of 
being able to use my time to ask any other questions.
    This is an issue that is very important to me, since I 
represent central Illinois, and what I would consider the 
breadbasket of America and the world. And agro-terrorism is a 
concern that I don't think many of my constituents think about. 
So the discussion we have had here today, going along with your 
written testimony, Ambassador, you mentioned the problem that 
gets talked about in this Committee a lot, is we have to feed 
millions more people in the future with the technology, the 
land, and the products that we have today. So how do we 
continue to make America even more productive, even though we 
are the safest and most productive food suppliers in the world?
    And, Dr. Beckham, in your written testimony, you actually 
stated the very elements that make the U.S. agricultural system 
robust and productive, also make it vulnerable to an incident. 
I am the father of three kids. I mean that is very scary to me, 
and something that I don't normally think about on a daily 
basis, and we hear some things that make you really scared as a 
parent. We have to feed nine billion people by 2050, and as you 
know, we have to continue to lead. And with that in mind, how 
do we increase our ag production both in your industry and in 
the grain industry too? What can we do, and how does 
biotechnology play a role in this?
    Mr. Negroponte. So I will defer to Dr. Beckham on most of 
this, but one is science, technology, biotechnology, for sure 
if you are going to have to produce 70 percent more food in the 
world, but----
    Mr. Davis. How do we get some of our allies to be able to 
take the biotechnological products that we produce, that can 
produce more, that we are going to need, how do we stop them 
from implementing policies that don't allow us to do that?
    Mr. Negroponte. Well, ultimately, the truth is going to win 
out and so will their farmers and their own intellectual 
capabilities, they are going to see the benefits that this 
activity brings. The other issue we need to mention is waste. I 
mean how much, because of bad infrastructure----
    Mr. Davis. Yes.
    Mr. Negroponte.--food is lost in many parts of the world 
because of wastage during the time that it is getting from the 
point of origin to the market. They estimate something like 30 
percent. So the development of efficient supply chains around 
the world is another area where American knowledge and 
expertise can be brought to bear and help these countries out.
    Dr. Beckham. So I would agree, and I would say, going back 
to the science and technology, that eventually, based on the 
science, that the truth will win out. And we have to have that 
scientific evidence, obviously, that it is safe.
    I think the other way is through international training and 
helping people become more efficient, and looking at more of 
the global perspective. I think we have to take a look at that. 
I mean if you take a look also about Foot and Mouth Disease 
really drops production in animals, but yet abroad they don't 
allow recombinant vaccines to be utilized. And so how do we 
turn that table to allow the use of new technologies and new 
innovations abroad to help us control some of these more 
devastating diseases that drop milk production and that drop 
production in animals. So those are things that over time, when 
we have to feed nine billion people, are going to come to the 
forefront, and the world as a whole, working with OIE, again, I 
come back to working with our international partners and the 
World Organisation for Animal Health, to get the truth out 
about genetically modified recombinant vaccines and production, 
and so that we can begin to educate and train and use these 
innovations to increase our food supply.
    Mr. Davis. This is fascinating to me. And your discussion 
about biosurveillance programs and what we need to do to do 
that in addition to producing more here in America is something 
that I hope this Committee continues to look at and highlight. 
And I want to commend the Chairman for having both of you here 
today. So thank you for your time today.
    And I will yield back the balance of my time.
    The Chairman. The gentleman yields back.
    Mr. Rouzer, 5 minutes.
    Mr. Rouzer. Thank you, Mr. Chairman. And thank you both for 
being here today. I appreciate it very, very much. And I found 
both of your testimonies very intriguing.
    I have always felt like if we got our agriculture policy 
right, our energy policy right, and our infrastructure policy 
right, we are in the catbird seat for centuries to come.
    Now, one issue that is very, very intriguing to me, and I 
am trying to wrap my mind around it, Mr. Ambassador, you talked 
about it a little earlier during the course of this hearing, 
and that is water. I never would have thought when I was 
growing up as a kid that one day I would be drinking a bottle 
of water that you buy. When I was growing up, if you wanted 
water, you just went to your garden hose. And much less never 
would have thought anybody would pay $5 for a cup of coffee. So 
the world changes. And certainly, water is becoming more and 
more of a scarce resource. In agriculture you can't grow 
anything without the sun and without water. Mr. Newhouse and I, 
and several other Members, were in Israel earlier this year 
during the course of the August recess, and they do a 
magnificent job over there of water conservation and recycling 
of their water. And I believe, if I recall, they recycle close 
to 80 percent of their water there. So I am just curious, based 
on your experience and your thoughts, if you could talk more 
about water and the issue, and what we need to be doing here in 
this country. Obviously, it has been a very acute problem in 
California and other parts of the country based on the climate, 
et cetera, and it is something we really need to start thinking 
about now. And so I am just curious your thoughts and analysis 
of that.
    Mr. Negroponte. Well, first of all, what you mentioned 
about your experience in Israel I think has to do a little bit 
with this whole culture of waste not, want not. I mean they 
value every scrap of material resources they have, and they do 
their best to conserve them. So part of it has to do with an 
attitude. There are some other areas of the world where 
governments and societies are not well enough organized to cope 
with the water problems they have. Like we were talking about, 
the situation of drought in Syria that happened to coincide--I 
am not saying it caused the civil war, but it happens to 
coincide with a period of real civil strife. So they have 
really got a very difficult situation.
    I worry also about water contamination. I used to look at 
the Tigris and Euphrates River when I was serving in Iraq, and 
I was wondering what the heck was going into that river from 
the source countries all further to the north, and then all the 
way down along the way. So there is the problem of water 
contamination which is also a serious issue.
    Ultimately, the market is going to help us resolve these 
issues because there is going to be a time when water is just 
going to be more costly for us and for our society to protect 
and preserve, and as that happens, we are going to take a more 
careful and judicious attitude towards the management of water. 
But we are going to probably do it--on the way, we will 
probably pay a few expensive lessons to get to that point.
    Mr. Rouzer. Dr. Beckham, do you have any thoughts on that?
    Dr. Beckham. No, I am sorry.
    Mr. Rouzer. Thank you, Mr. Chairman. I yield back my time.
    The Chairman. The gentleman yields back.
    Mr. Thompson, for 5 minutes.
    Mr. Thompson. Thank you, Mr. Chairman. Dr. Beckham, 
Ambassador, thank you so much for being here. This is a gravely 
important topic. There is a lot at risk if we don't properly 
prepare, obviously.
    Dr. Beckham, the numbers that you shared in America how we 
are blessed with affordable food, 6.4 percent versus a range of 
11 to 47 percent; 9.2 percent of our jobs, $1 trillion 
business, a huge part of our gross domestic product. There is a 
lot at risk from many perspectives there, on all fronts.
    Dr. Beckham, the most recent ag listening session I did, I 
was with a group of producers. We spent a morning talking about 
their issues, concerns, hearing what was on their mind, and 
they identified basically what they saw as some threats, 
obviously, to food security or food insecurity. Workforce was 
on there, regulations was on there. They talked about what it 
is like to be a producer and to have a regulation you have to 
follow, and the guidance you are given is 1,000 pages from 
USDA. And then, of course, bioterrorism came up as well.
    Now, you have shared some recommendations to deal with the 
agro-terrorism. What I see is the food integrity perspective 
for food safety, and really some good things. Incentivize 
interdisciplinary work, better centralized coordination, better 
surveillance and education. I wanted to run by you one of the 
solutions that these producers shared with me, to get your 
thoughts on. It was more frontline, actually, but it was to see 
more of a presence through our extension program, which I am a 
huge fan of extension. There aren't many places where we have 
an agent that is really focused with an expertise on food 
safety or integrity, and to have that--now, that is really a 
boots on the ground level, but somebody to be there to counsel, 
to advise, to guide producers around these food safety and what 
I would call food integrity issues. I wanted to get your 
thoughts on what these folks had suggested.
    Dr. Beckham. Absolutely critical. Absolutely. So I would 
say that having a robust extension system out that could help 
talk about things and help with workforce development, that 
could help do training in biosecurity, that can help talk about 
the business continuity plans that have been developed, that 
can help talk about the new veterinary feed directives, and all 
of those types of items with our producers, being on the 
frontline. Ag extension is so incredibly important, and we 
should support that more across the U.S. Obviously, in Texas 
there is a very robust ag extension program, and I would like 
to see that ag extension program come back nationally, and that 
there be more boots on the ground interfacing with our 
producers. That is where the land-grant universities play a 
role. That is what a land-grant mission is. We should be taking 
the knowledge that is in the research side of the land-grant 
and getting that out to our producers, and that will help us 
have a more safe, secure food supply if we do that.
    Mr. Thompson. Very good. Thank you. I was a proud graduate 
of another land-grant university, Penn State University. I 
couldn't agree more.
    Ambassador, the sixth trend you mentioned was energy 
prices, the impacts on production costs and diverting more 
crops for fuel. In your view, what ways might this issue be 
addressed by Congress?
    Mr. Negroponte. Well, just generally speaking, I think for 
Congrees to do whatever it can to ensure that energy prices in 
this country and in the world are governed by market 
conditions. I think wherever there are restrictions to trade 
and energy, I think that that can have an inhibiting effect on 
the market. I am thinking particularly of allowing energy 
exports from the United States, which would be a good thing 
rather than a bad one, and it could have a salutary effect on 
the global market.
    Mr. Thompson. In your testimony, you had referenced the 
importance of research, and research, obviously, in agriculture 
and agricultural issues through our land-grant universities. So 
I want to sort of revisit with you what I talked with Dr. 
Beckham about. What do you see the role of research or land-
grant universities when it comes to food security? How 
important is that, what role should it play?
    Mr. Negroponte. Well, I said right at the beginning of my 
statement that the establishment of the Homestead Act in 1861 
was revolutionary legislation, to which we can attribute a 
significant measure of the success of our agricultural system. 
So I think that needs to be continued. And it is also a good 
role model for other countries in the world seeking to 
establish robust agricultures of their own. In both senses it 
is very important.
    And then last, we need to keep up these capabilities. 
Whether it is for biosurveillance or for all the other things 
that are necessary in the field of agriculture, we need to 
maintain a strong agricultural agro-scientific capability here 
in the United States.
    Mr. Thompson. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. The gentleman's time has expired.
    Mr. Allen, for 5 minutes.
    Mr. Allen. Thank you. And I had to run out for a moment. I 
have two hearings going on here simultaneously, but I want to 
thank you for your testimony earlier. And I want to express to 
you that I do believe that if we can help other countries 
develop their agriculture, then I believe that that country 
will be a friend for life. I grew up on a farm, it is very 
important not only to feeding people, but it is also very good 
as far as dignity and the ability to produce something, 
particularly as valuable as food is, particularly in certain 
areas of the world.
    I guess my question is, there are some nations, obviously, 
that are difficult to deal with, but are we doing all we need 
to do in those nations, some kind to mind, I have been on 
mission trips in several areas of the world; Moldova, Kenya, 
South Africa, South America. Are we doing everything that we 
need to do from the standpoint of this House, as far as making 
this available to these countries?
    Mr. Negroponte. As far as--I didn't catch the last--the 
very last part?
    Mr. Allen. Do you have anything that we need to be doing 
here----
    Mr. Negroponte. Yes.
    Mr. Allen.--as a body----
    Mr. Negroponte. Yes.
    Mr. Allen.--to extend the friendship of agricultural----
    Mr. Negroponte. Right.
    Mr. Allen.--development and that sort of thing to----
    Mr. Negroponte. Yes.
    Mr. Allen.--those countries that we do have a relationship 
with?
    Mr. Negroponte. Yes. Well, I mean first of all, I agree 
with you that it is something that is very positive. I think 
these scholarships and these grants that you give to people 
that the Agriculture Department and USAID gives for people to 
come here is a very positive thing. So you need to keep your 
eye on the funding for those programs so that it doesn't 
atrophy or disappear.
    I think the other thing, I was mentioning this earlier, I 
am not sure you were in the room at the time about maintaining 
the presence of our own people, Agriculture Department and 
others, abroad so that they can be ambassadors for U.S. 
agriculture abroad, and they can make very good friends. They 
can also help identify people, upcoming talent that may be good 
candidates for scholarship activity of some kind or another 
here in the United States. But I couldn't agree with you more 
that, in terms of relationship-building, agriculture, given its 
tremendous standing here in the United States and its high 
quality, is an excellent diplomatic tool.
    Mr. Allen. On the other side of that equation, nations that 
we have assisted, or maybe they have done this on their own, we 
tend to have conflict with through the WTO and Brazil as far as 
the cotton market. Right now, in our production of cotton, the 
world market price is 60, and obviously, our farmers can't 
make it on that. In your travels and your understanding of the 
world needs, how can we come together on the fact that we don't 
want to threaten our farmers, but at the same time, we want to 
help these other folks?
    Mr. Negroponte. Yes. Well, you have mentioned a 
particularly sensitive example, right, the cotton, and it has 
been an issue particularly with Brazil for, what, I guess, 
several decades, if I am not mistaken. And so we have some of 
these sensitive agriculture products of our own as well, I mean 
other ones. But for the great majority of these products, we 
have tried to develop free trade relationships with countries, 
and ultimately that is probably the best way to go, and to the 
benefit of agricultural competitiveness and the quality of 
agricultural production.
    Mr. Allen. Well, as far as trade agreements, I agree with 
you.
    Mr. Negroponte. Yes.
    Mr. Allen. We need to have understandings with each nation, 
particularly those that we want to do business with.
    Well, I yield back the remainder of my time, Mr. Chairman.
    The Chairman. The gentleman yields back.
    Mr. Allen. Thank you.
    The Chairman. Thank you.
    I now recognize myself for 5 minutes.
    Ambassador, Bob Goodlatte couldn't stay to get to his 
question. Can you expand a little bit on what GT was talking 
about with respect to energy costs and crops that we use. His 
specific question was, could you elaborate on the policy of 
potential impact that the diversion of crops to fuel could have 
on our food security? In your testimony, you talked about the 
amount of corn crop that goes into ethanol versus foods.
    Mr. Negroponte. Right.
    The Chairman. Could you expand on that a little bit?
    Mr. Negroponte. Well, again, I think that perhaps the 
marketplace is going to also deal with that issue over time. 
Because it is kind of hard to sort of allocate and get into 
some sort of a command economy type of situation where you say 
you are going to allow product X to be used for one purpose but 
not for another. But I suspect that is going to sort itself out 
over time, especially with the development of all sorts of 
other alternative energy possibilities, going forward.
    The Chairman. Well, thank you.
    Dr. Beckham, we have spent a lot of time talking about Foot 
and Mouth Disease and the impact it would have. I am genuinely 
concerned with the feral hog population that is exploding in 
some places. If it were to get introduced by accident or on 
purpose into that population, I understand if you can control 
it in a particular herd, but what if it got into the feral hog 
population, what happens to us then?
    Dr. Beckham. It would be very difficult to control if it 
gets into the feral hog population. With over four million 
feral hogs probably in the State of Texas, it would be a 
nightmare with the interface that we have between feral hogs 
and several of our farms and production systems. So----
    The Chairman. Can----
    Dr. Beckham.--that is where biosecurity becomes really 
important.
    The Chairman. Yes. What do you think our trading partners, 
what would their reaction be to an outbreak with respect to 
cattle and beef----
    Dr. Beckham. Yes.
    The Chairman.--that weren't necessarily affected, but just 
the threat of if we had the outbreak in the feral hog 
population, what do you think our trading partners' reactions 
would be?
    Dr. Beckham. I think they would obviously look to the U.S., 
but close doors on trade for a period of time until you could 
demonstrate the domestic animal population was free, and that 
would be a very difficult road.
    The Chairman. All right, guys. Both of you, the time that 
is left, talk to us about how a safe food supply fits into 
overall U.S. national security, just to kind of hammer that one 
more time. Ambassador first.
    Mr. Negroponte. Well, I mean it is absolutely critical. You 
don't want to have eruption of crises with respect to the 
safety of our food. And probably the best way to deal with it 
is to continue to have the kind of surveillance and other 
monitoring types of capabilities that we do have, and we have 
to constantly be on our guard.
    The Chairman. Dr. Beckham?
    Dr. Beckham. And I would just reiterate that and say, 
obviously, agriculture is just absolutely critical to our food 
supply and our national security, and the things that we have 
to do to continue to address that include everything from 
investing in the One Health concept, biosurveillance, working 
really closely with our industries. I think that one is 
probably one of the most important ones, is that we really work 
closely with them to figure out what their needs are, to help 
them to help us understand how they do business, how they move 
animals, where they move animals, and how we can help them 
continue to do those things in the event that we do have a 
disease incursion of some sort.
    The Chairman. Dr. Beckham, you have mentioned the One 
Health initiative, One Health concept several times. Would you 
walk us through that?
    Dr. Beckham. Okay. Well, as stated earlier, the One Health 
concept has been around for quite some time, and it is just a 
concept that animal health, human health, environmental health 
are linked. So whether it is with diseases or with a toxin, or 
with some other agent, or just in general, we all have to 
inhabit this planet together, and so we have to understand that 
whatever happens with animal health affects our food supply, 
diseases that can jump from animals to humans, it is all a One 
Health concept. We have to begin to approach critical 
challenges that affect us today in a more comprehensive way. So 
we can't just look at things in a silo. USDA can't be working 
on a vaccine for Rift Valley Fever and so can somebody with 
HHS, with no concept of what each other is doing and direction, 
because then we are duplicating funding efforts and we are not 
working in the same direction. Not saying that is happening, 
but I am saying those types of things don't lead us to really 
take a holistic approach as to the One Health. So what does a 
disease look like in animals, is it able to hop over to humans, 
can we develop animal models of human diseases like cancer. So 
all of that is the One Health concept. And really starting the 
institutionalize it, again, the concept has been around for a 
very, very long time, but it is really hard to get momentum 
behind that without some equalization of funding and some 
larger body that is incentivizing that One Health approach to 
our greater challenges.
    The Chairman. Or some monster crisis.
    Dr. Beckham. Right. Which we don't want to be reactive, we 
want to be proactive.
    The Chairman. Well, I want to thank both of our witnesses. 
Today's hearing was entitled, American Agriculture and Our 
National Security, but I want to thank both of you. This is the 
inaugural event for this issue. We are going to continue to 
explore this thing over time, and to continue to help broaden 
the narrative that agriculture weaves its way through almost 
every aspect of national security and world security, starting 
with Kika de la Garza's famous quote, ``If we can't feed them 
on submarines, then they are not going to be able to fight.'' 
Through everything, infrastructure, the impact that threats to 
infrastructure has on agriculture, whether it is shipping lanes 
or domestic infrastructure, the various biodefenses and 
biosurveillances, everything that goes on, to people going into 
a restaurant or at the grocery store buying something, they 
automatically assume it is safe. You don't ever question that. 
That confidence we have in the current system could be shaken 
dramatically if we are not careful, and the impact that strong 
ag economies have on every nation, the prosperity created by 
strong agriculture is a good offensive weapon against every 
aspect of peoples' lives, where they don't have jobs and they 
can't provide for themselves, is impacted positively by strong 
production agriculture in every nation. So, Ambassador, thank 
you. Dr. Beckham, thank you very much and bless you, for being 
here with us this morning.
    And as I said, we will continue this narrative about how 
production agriculture weaves into the broader security issues 
across this world as we move forward, and helping to create 
some sort of grand strategy approach to looking at all of these 
issues.
    Under the rules of the Committee, the record of today's 
hearing will remain open for 10 calendar days to receive 
additional material and supplemental written responses from the 
witnesses to any questions posed by a Member.
    This hearing of the Committee on Agriculture is adjourned. 
Thank you.
    [Whereupon, at 11:55 a.m., the Committee was adjourned.]
    [Material submitted for inclusion in the record follows:]
  Submitted Statement by Marshall L. Matz, J.D., Principal Attorney, 
              Olsson Frank Weeda Terman Matz PC (OFW Law)
    Chairman Conaway, Mr. Peterson, Members of the Committee, thank you 
for allowing me to submit a statement for the record on American 
agriculture and national security.
    First, to directly answer the question that is implied by the title 
of the hearing: Yes, there is a direct link between American 
agriculture and our national security. Food insecurity has a direct 
impact on national security--both U.S. national security and political 
stability around the globe. American farmers and ranchers make a direct 
contribution to our national security, as does the U.S. Department of 
Agriculture (USDA), U.S. Agency for International Development and 
American political leadership.

  <bullet> Our farmers and ranchers produce a safe and ubiquitous food 
        supply for the American consumer, at the lowest cost in 
        history, and then export much of it to help feed the rest of 
        the world.

  <bullet> U.S. agriculture research especially that conducted by our 
        land grant institutions, benefits the entire world. From the 
        Borlaug Institute at Texas A&M, to the corn research at Iowa 
        State, to the wheat research at South Dakota State University, 
        these are just a few of the many institutions contributing to 
        both food and national security.

  <bullet> Under the leadership of the United States, the G8 and G20 
        have adopted global food security as a high priority, with a 
        special effort aimed at Africa.

  <bullet> Finally, the United States and American agriculture is the 
        leading contributor to food assistance through the United 
        Nations (UN) World Food Programme.

    In the last several months, there has been a lot of attention on a 
number of separate issues and events which impact global food security 
across a range of activities. From Pope Francis' visit to the United 
States and the announcement of the United Nations 2030 Sustainable 
Development Goals, (https://sustainabledevelopment.un.org/topics) to 
the ongoing trade negotiations and the discussion of genetic 
engineering and biotechnology, they all have an impact global food 
security.
    From my perspective, therefore, the question is not whether 
American agriculture impacts national security, but how to achieve 
global food security? What would it take to reach the UN goal of 
eliminating hunger by 2030? There are a number of key pieces to that 
puzzle.
    As Pope Francis noted during his recent trip to the U.S., ``The 
fight against poverty and hunger must be fought constantly and on many 
fronts . . .'' The number of hungry people in the world--795 million--
has dropped by 100 million over the past decade, thanks in no small 
part to coordinated international efforts led by the U.S. According to 
the USDA, Latin America and the Caribbean region saw the steepest 
declines in the number of food-insecure people, followed closely by 
Asia.
    According to the State Department, to feed a growing world 
population, we need to increase global food production by 70% before 
2050. Women make up the majority of the agricultural workforce in many 
areas of the world. Yet, today, for every investment we make in 
producing food, we fail to get the best results because many women lack 
the access they need to land, seeds, water, credit and markets.
    That is particularly true in Africa, as pointed out recently by Dr. 
Agnes Kalibata. Dr. Kalibata, who was the Minister of Agriculture in 
Rwanda responsible for a dramatic turnaround in the country's food 
security, is now the President of the Alliance for a Green Revolution 
in Africa (AGRA). ``Africa is the last region of the world to go 
through an agriculture transformation,'' she notes. ``Africa has lagged 
behind for a number of reasons, including lack of access to improved 
seeds, fertilizers, mechanization and irrigation. The good news is that 
we are starting to see positive changes. A real African agriculture 
transition is underway. We are very single-minded about closing the 
yield gap for smallholder farmers and especially women farmers.''
    Africa is a key to global food security because the continent 
contains a majority of the world's underdeveloped agriculture land. 
Further, yields are so low . .  .only 10% of our yields . . . that they 
can be increased dramatically by getting smallholder farmers access to 
modern seeds, inputs and educational services.

                   Agriculture: U.S.-Africa Comparison
        (Mr. Strive Masiyiwa, World Food Prize--October 16, 2014)
------------------------------------------------------------------------
                                         U.S.               Africa
------------------------------------------------------------------------
Percentage of people who farm                 1%                65%
Cost of food as a percent of                  9%                70%
           disposable income
          Agriculture trade          Export $140B         Import $35B
    Corn yields bushel/acre                  180                 20
------------------------------------------------------------------------
Reproduced from Matz (2014), Africa Rising.

    The distribution system in Africa has to be a major focus of 
attention. Whether through private sector agro-dealers, community 
groups or government, smallholder farmers in very remote villages must 
gain access to the tools of modern agriculture.
    The newly released UN 2030 Agenda for Sustainable Development 
places a high priority on agriculture and empowering women. Included in 
the 17 Sustainable Development Goals is a commitment to double, by 
2030, the agricultural productivity and incomes of small-scale food 
producers, particularly women.
    At the other end of the technology divide, in the United States and 
other developed countries, there must be enough political courage and 
consumer confidence to follow sound science. Yes, that means accepting 
genetic engineering (GE) for agriculture production just as we do for 
health care. The bottom line is that GE crops raise crop yields, uses 
less water and require fewer inputs, which improves the environment.
    Last month, the United States and China released an important joint 
cooperation statement to promote a strong global economy. As a part of 
that process, according to the White House statement, ``The United 
States and China conducted in-depth discussions on the administration 
of agricultural biotechnology, and committed to further improve 
approval processes. Both sides reaffirmed the importance of 
implementing timely, transparent, predictable, and science-based 
approval processes for products of agricultural biotechnology, which 
are based on international standards.''
    This position taken by the U.S. with regard to China on the 
importance of regulatory synchronization should now be extended to the 
fifty states here in America. The Federal Government cannot allow each 
state to implement its own GMO labeling system and expect interstate 
commerce to continue without interruption. It is simply not possible or 
reasonable. Congress and the Administration must come together to 
preempt the states (as the House has done), and develop one national 
system that is uniform and science-based.
    Agricultural biotechnology, by itself, is not the answer to global 
food security, but it is a part of the solution and it is important 
that consumers have confidence in the technology. In order to achieve 
global food security, there must be a consistent policy across a range 
of issues. If the United States is going to push China on 
biotechnology, it should also preempt the states so there is one 
national GMO labeling policy.
    Let's also realize that, even if we could wave a magic wand and 
implement all of these steps, there would still be hungry people in the 
world. There will always be natural disasters, droughts and civil wars. 
Today, some 60 million people are displaced by violence, conflict and/
or repression. The World Food Programme (WFP) is an extraordinary 
organization, but is being stretched beyond its capacity. WFP doesn't 
have the resources to help refugees, the victims of natural disasters 
and farmers who are not producing enough to sustain their family. Half 
of all the hungry people in the world are actually farmers. Boosting 
the production of smallholder farmers would allow WFP to focus on 
emergencies.
    In short, global food security is in sight. If it is made a 
priority, the new UN goal to eliminate hunger by 2030 can be achieved. 
American agriculture has been at the center of the U.S. economy since 
President Lincoln established the Department of Agriculture. While the 
American farmer is now so efficient that only 1% of the population 
feeds the entire country and much of the world, agriculture remains a 
mainstay of our economy and a major part of national security. Thank 
you.

          Marshall Matz is an attorney with OFW Law in Washington, D.C. 
        He served as General Counsel to the Senate Select Committee on 
        Nutrition and Counsel to the Senate Committee on Agriculture. 
        He was the Founding Chairman of the World Food Programme--USA. 
        He continues to serve on the Board of the World Food Programme, 
        USA and the Congressional Hunger Center. This testimony 
        represents the opinion of Marshall Matz, not his law firm, 
        clients or any organization.
                                 ______
                                 
                           Submitted Question
Response from Hon. John D. Negroponte, former Ambassador; Vice 
        Chairman, McLarty Associates
Question Submitted by Hon. Mike Bost, a Representative in Congress from 
        Illinois
    Question. In your testimony, you mention that trade policy is 
changing the world of agriculture, and offers immense opportunities 
especially for farmers in my district in Illinois. With the possibility 
of nine billion people on the planet by 2050, we need to produce more 
food on less land leading during that time. Given the proven safety of 
our biotechnology, do you believe our trading partners, especially in 
Asia, should be more expedient with their approval process and what 
should out government be doing to encourage or compel them to accept 
our proven biotech crops?
    Answer. To feed the coming world of nine billion we need modern 
technology, open borders, and to conserve vital resources such as land 
and water. Technology will play a central role in achieving this goal. 
To ensure that agricultural innovation continues, policy must be 
supportive. Internationally, this means that our trading partners 
should use sound science when evaluating new products, including those 
derived from biotechnology.
    To achieve this, we need to continue addressing market access 
issues for the novel products both through bilateral and multilateral 
channels. However, this is not enough. We must engage more effectively 
with stakeholders outside government, including agricultural producers, 
the media, and the general public. Without deeper and more proactive 
outreach, we miss the opportunity to reduce widespread science 
skepticism. Unless we can convince the ``anxious middle'' of the safety 
of modern agricultural production technologies, we risk finding 
ourselves in a situation where resistance has stifled innovation and 
our ability to feed the world.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
